<html>
<title> - COLLEGE CREDIT MOBILITY: CAN TRANSFER OF CREDIT POLICIES BE IMPROVED?</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
 COLLEGE CREDIT MOBILITY: CAN TRANSFER OF CREDIT POLICIES BE IMPROVED?

=======================================================================

                                HEARING

                               before the

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

                                 of the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                              May 5, 2005

                               __________

                           Serial No. 109-14

                               __________

  Printed for the use of the Committee on Education and the Workforce



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
            Committee address: http://edworkforce.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-019                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN A. BOEHNER, Ohio, Chairman

Thomas E. Petri, Wisconsin, Vice     George Miller, California
    Chairman                         Dale E. Kildee, Michigan
Howard P. ``Buck'' McKeon,           Major R. Owens, New York
    California                       Donald M. Payne, New Jersey
Michael N. Castle, Delaware          Robert E. Andrews, New Jersey
Sam Johnson, Texas                   Robert C. Scott, Virginia
Mark E. Souder, Indiana              Lynn C. Woolsey, California
Charlie Norwood, Georgia             Ruben Hinojosa, Texas
Vernon J. Ehlers, Michigan           Carolyn McCarthy, New York
Judy Biggert, Illinois               John F. Tierney, Massachusetts
Todd Russell Platts, Pennsylvania    Ron Kind, Wisconsin
Patrick J. Tiberi, Ohio              Dennis J. Kucinich, Ohio
Ric Keller, Florida                  David Wu, Oregon
Tom Osborne, Nebraska                Rush D. Holt, New Jersey
Joe Wilson, South Carolina           Susan A. Davis, California
Jon C. Porter, Nevada                Betty McCollum, Minnesota
John Kline, Minnesota                Danny K. Davis, Illinois
Marilyn N. Musgrave, Colorado        Raul M. Grijalva, Arizona
Bob Inglis, South Carolina           Chris Van Hollen, Maryland
Cathy McMorris, Washington           Tim Ryan, Ohio
Kenny Marchant, Texas                Timothy H. Bishop, New York
Tom Price, Georgia                   John Barrow, Georgia
Luis G. Fortuno, Puerto Rico
Bobby Jindal, Louisiana
Charles W. Boustany, Jr., Louisiana
Virginia Foxx, North Carolina
Thelma D. Drake, Virginia
John R. ``Randy'' Kuhl, Jr., New 
    York

                    Paula Nowakowski, Staff Director
                 John Lawrence, Minority Staff Director
                                 ------                                

              SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS

            HOWARD P. ``BUCK'' McKEON, California, Chairman

Jon C. Porter, Nevada Vice Chairman  Dale E. Kildee, Michigan
John A. Boehner, Ohio                Donald M. Payne, New Jersey
Thomas E. Petri, Wisconsin           Carolyn McCarthy, New York
Michael N. Castle, Delaware          John F. Tierney, Massachusetts
Sam Johnson, Texas                   Ron Kind, Wisconsin
Vernon J. Ehlers, Michigan           David Wu, Oregon
Patrick J. Tiberi, Ohio              Rush D. Holt, New Jersey
Ric Keller, Florida                  Betty McCollum, Minnesota
Tom Osborne, Nebraska                Chris Van Hollen, Maryland
Bob Inglis, South Carolina           Tim Ryan, Ohio
Cathy McMorris, Washington           Robert C. ``Bobby'' Scott, 
Tom Price, Georgia                       Virginia
Luis G. Fortuno, Puerto Rico         Susan A. Davis, California
Charles W. Boustany, Jr., Louisiana  Timothy H. Bishop, New York
Virginia Foxx, North Carolina        John Barrow, Georgia
Thelma D. Drake, Virginia            Major R. Owens, New York
John R. ``Randy'' Kuhl, Jr., New     George Miller, California, ex 
    York                                 officio


                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 5, 2005......................................     1

Statement of Members:
    Kildee, Hon. Dale E., Ranking Member, Subcommittee on 21st 
      Century Competitiveness, Committee on Education and the 
      Workforce..................................................     4
        Prepared statement of....................................     5
    McKeon, Hon. Howard P. ``Buck'', Chairman, Subcommittee on 
      21st Century Competitiveness, Committee on Education and 
      the Workforce..............................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Day, Dr. Philip R., Jr., President, National Articulation and 
      Transfer Network, San Francisco, CA........................     6
        Prepared statement of....................................     8
    Klebacha, Dr. Theresa A., Director of Strategic Initiatives, 
      Florida Department of Education, Tallahassee, FL...........    20
        Prepared statement of....................................    22
    Sullivan, Jerome H., Executive Director, American Association 
      of Collegiate Registrars and Admissions Officers, 
      Washington, DC.............................................    25
        Prepared statement of....................................    27
    Zimpher, Dr. Nancy L., President, University of Cincinnati, 
      Cincinnati, OH.............................................    11
        Prepared statement of....................................    13



 COLLEGE CREDIT MOBILITY: CAN TRANSFER OF CREDIT POLICIES BE IMPROVED?

                              ----------                              


                         Thursday, May 5, 2005

                     U.S. House of Representatives

              Subcommittee on 21st Century Competitiveness

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., in room 
2175, Rayburn, Hon. Howard P. ``Buck'' McKeon [Chairman of the 
Subcommittee] presiding.
    Present: Representatives McKeon, Boehner, Tiberi, Osborne, 
Inglis, Boustany, Kuhl, Kildee, Wu, and Bishop.
    Staff Present: Kevin Frank, Professional Staff Member; 
Alison Griffin, Professional Staff Member; Amy Raaf, 
Professional Staff Member; Deborah L. Emerson Samantar, 
Committee Clerk/Intern Coordinator; Brad Thomas, Legislative 
Assistant; Ricardo Martinez, Minority Legislative Associate/
Education; Alex Nock, Minority Legislative Associate/Education; 
and Joe Novotny, Minority Legislative Assistant/Education.
    Chairman McKeon. A quorum being present, the Subcommittee 
on the 21st Century Competitiveness of the Committee on 
Education and the Workforce will come to order.
    We are holding this hearing today to hear testimony 
addressing the question of, College Credit Mobility, Can 
Transfer of Credit Policies Be Improved?
    Under Committee rule 12(b), opening statements are limited 
to the Chairman and the Ranking Minority Member of the 
Committee. Therefore, if other Members have statements, they 
will be included in the hearing record.
    With that, I ask unanimous consent for the hearing record 
to remain open 14 days to allow Members' statements and other 
extraneous material referenced during the hearing to be 
submitted to the official hearing record.
    Without objection, so ordered.

    STATEMENT OF HON. HOWARD P. ``BUCK'' McKEON, CHAIRMAN, 
  SUBCOMMITTEE ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON 
                  EDUCATION AND THE WORKFORCE

    Good morning, and thank you all for joining us today for 
this important hearing on college credit mobility. I want to 
welcome our witnesses and thank them for taking the time to 
appear before the Subcommittee.
    Today's hearing will examine if current policies regarding 
the mobility of academic credit at the State and institutional 
level create artificial barriers to higher education and to 
examine the best practices that some States may be doing to 
permit fair and efficient transfer of credit.
    With data showing more than 50 percent of students attend 
multiple institutions of higher education, it has become 
increasingly important for students to have the flexibility to 
transfer their credits from one school to another. And with 
increasing numbers of nontraditional students pursuing higher 
education for the first time or returning to school to complete 
their education, it has become more important than ever that 
college students are free to transfer from one institution to 
another without unfairly losing credit for quality courses they 
have completed.
    I have heard from many in the higher education community 
who believe there is nothing wrong with the current system. The 
message I hear is: we're doing just fine; just send us more 
money.
    However, when institutional policies support the blanket 
denial of credit transfers, I believe there is something wrong. 
Artificial barriers to college credit mobility inhibit student 
completion rates and help drive up the cost of post-secondary 
education.
    If students are blocked from transferring from a 2-year 
institution to 4-year institution or from a proprietary 
institution to any other institution for reasons considered to 
be territorial or political, the student is forced to repeat 
course work, extend the time to completion, and all this comes 
at an additional cost. But this cost is borne not just by the 
students but by parents and taxpayers as well. We are all 
paying for students to take the same courses twice.
    In addition, according to the College Board, average 
tuition and fees at 2-year institutions for this school year 
were only about 40 percent of those at public 4-year 
institutions. Students and their families should be able to 
take advantage of these low-cost institutions and the quality 
education they provide to help hold down the families' 
educational costs during their first 2 years of school, and 
they should be able to plan ahead when they seek portability 
with the credits they earn. I believe students should have good 
information on where those credits will be accepted and have 
the confidence they will not have to start over from the 
beginning to finish their degrees at 4-year schools.
    Recognizing the importance of college credit mobility, 
Chairman Boehner and I introduced H.R. 609, the College Access 
and Opportunity Act. To address the issue of college credit 
mobility, our bill simply requires institutions to have a 
transfer of credit policy, make that policy public, and follow 
that policy. It is absolutely critical that institutions of 
higher education provide better information to parents and 
students so they can make informed decisions on what college or 
university will meet their individual needs.
    Our bill also ensures credits are not unfairly or 
arbitrarily denied based solely on the agency or association 
that accredits an institution, so long as they are recognized 
by the U.S. Secretary of Education. It is important to point 
out that the bill contains language specifying that 
institutions retain all rights to deny credits based on the 
criteria they themselves establish. It does not mandate what 
course work must be accepted by any institution.
    The witnesses that are with us today will talk about State 
and institutional level programs that are working to address 
college credit mobility. I applaud the work that is already 
under way in some States and institutions to improve college 
credit mobility for students, and I am eager to learn more 
about these efforts. I also believe their testimony will show a 
commitment to addressing the challenges of college credit 
mobility.
    As we enter the 21st century, it is our duty and obligation 
to act, to drive improvements to the current system to reflect 
today's increasingly mobile student body. I look forward to 
hearing our witness testimony here today, and I thank you all 
for joining us to discuss this important topic, and I look 
forward to working with you as we move forward on this issue.
    I now yield to Congressman Kildee for his opening 
statement.
    [The prepared statement of Chairman McKeon follows:]

Statement of Hon. Howard P. ``Buck'' McKeon, Chairman, Subcommittee on 
 21st Century Competitiveness, Committee on Education and the Workforce

    Good morning and thank you all for joining us today for this 
important hearing on college credit mobility. I want to welcome our 
witnesses and thank them for taking the time to appear before the 
subcommittee.
    Today's hearing will examine if current policies regarding the 
mobility of academic credit at the state and institutional level create 
artificial barriers to higher education and to examine the best 
practices that some states may be doing to permit fair and efficient 
transfer of credit.
    With data showing more than 50 percent of students attend multiple 
institutions of higher education, it has become increasingly important 
for students to have the flexibility to transfer their credits from one 
school to another. And, with increasing numbers of non-traditional 
students pursuing higher education for the first time, or returning to 
school to complete their education, it has become more important than 
ever that college students are free to transfer from one institution to 
another without unfairly losing credit for quality courses they have 
completed.
    I have heard from many in the higher education community who 
believe there is nothing wrong with the current system. The message I 
hear is, ``We're doing fine. Just give us more money.''
    However, when institutional policies support the blanket denial of 
credit transfers, I believe there is something wrong. Artificial 
barriers to college credit mobility inhibit student completion rates 
and help drive up the cost of postsecondary education.
    If students are blocked from transferring from a two-year 
institution to a four-year institution, or from a proprietary 
institution to any other institution for reasons considered to be 
territorial or political, the student is forced to repeat course work, 
extend the time to completion, and all this comes at an additional 
cost. But this cost is borne not just by the students, but by parents 
and taxpayers as well. We're all paying for students to take the same 
courses twice.
    In addition, according to the College Board, average tuition and 
fees at two-year institutions for this school year were only about 40% 
of those at public four-year institutions. Students and their families 
should be able to take advantage of these low cost institutions and the 
quality education they provide to help hold down the families' 
educational costs during their first two years of school, and they 
should be able to plan ahead when they seek portability with the 
credits they earn. I believe students should have good information on 
where those credits will be accepted and have the confidence they will 
not have to start over from the beginning to finish their degrees at 
four-year schools.
    Recognizing the importance of college credit mobility, Chairman 
Boehner and I introduced H.R. 609, the College Access and Opportunity 
Act. To address the issue of college credit mobility, our bill simply 
requires institutions to have a transfer of credit policy, make that 
policy public, and follow that policy. It is absolutely critical that 
institutions of higher education provide better information to parents 
and students so they can make informed decisions on what college or 
university will meet their individual needs.
    Our bill also ensures credits are not unfairly and arbitrarily 
denied based solely on the agency or association that accredits an 
institution, so long as they are recognized by the U.S. Secretary of 
Education. It is important to point out that the bill contains language 
specifying that institutions retain all rights to deny credits based on 
the criteria they themselves establish. It does not mandate what course 
work must be accepted by any institution.
    The witnesses that are with us today will talk about state and 
institutional level programs that are working to address college credit 
mobility. I applaud the work that is already underway in some states 
and institutions to improve college credit mobility for students, and 
I'm eager to learn more about these efforts. I also believe their 
testimony will show a commitment to addressing the challenges of 
college credit mobility.
    As we enter the 21st Century, it is our duty and obligation to act 
to drive improvements to the current system to reflect today's 
increasingly mobile student body. I look forward to hearing our witness 
testimony here today, and I thank you all for joining us to discuss 
this important topic and I look forward to working with you as we move 
forward on this issue.
                                 ______
                                 

STATEMENT OF HON. DALE E. KILDEE, RANKING MEMBER, SUBCOMMITTEE 
ON 21st CENTURY COMPETITIVENESS, COMMITTEE ON EDUCATION AND THE 
                           WORKFORCE

    Mr. Kildee. Thank you very much, Mr. Chairman. I am pleased 
today to join you, my friend and my colleague and my Chairman 
on today's hearing. This is an incredibly important issue to 
students, schools and for the cost and efficiency of our 
Federal student aid programs. I am very pleased that we have an 
expert panel here today to help us in our discussions today.
    The systems and policies our institutions, States and the 
Federal Government have in place on transfer of credit are 
significant to college access and graduation. The community 
college student whose ultimate goal is a 4-year degree needs to 
know up front which of his credits will transfer. A student who 
returns to college after several years needs a clear 
understanding how many existing credits will be considered. 
While many students have successful transfer experience, those 
who encounter problems are those we should be concerned about 
today.
    Lost credits translate into the need to repeat courses and 
higher education loan debt. States have responded to this 
problem through various means. Some States have created 
articulation agreements and others have created common course 
numbering among their institutions. Several State legislatures 
have mandated their colleges and universities to resolve this 
issue.
    I do not believe that the Federal Government has all the 
answers here. We can and should encourage States and 
institutions to develop systems and policies to ease the 
transfer of legitimate credits. We should also increase the 
sharing of information between sending and receiving 
institutions. All this must be done while respecting the right 
of colleges to judge the acceptance of credits based on 
quality.
    Colleges to which students are transferring must have the 
information to judge the quality and rigor of its students' 
courses. Unfortunately, too little of this happens now. H.R. 
609, introduced by Chairman McKeon, has several provisions 
which are intended to address difficulties in transferring 
credits. We need to find solutions for students who struggle to 
transfer these credits.
    I look forward to learning more about this. I am sure we 
can pursue this in a very bipartisan way as Mr. McKeon and I 
usually do.
    I yield back the balance of my time, Mr. Chairman.
    [The prepared statement of Mr. Kildee follows:]

Statement of Hon. Dale E. Kildee, Ranking member, Subcommittee on 21st 
   Century Competitiveness, Committee on Education and the Workforce

    Good morning, I am pleased to join my friend and colleague, 
Chairman McKeon at today's hearing on transfer of credit. This is an 
incredibly important issue to students, schools and for the cost and 
efficiency of our Federal student aid programs. I am very pleased that 
we have an expert panel of witnesses to help inform us in our 
discussions today.
    The systems and policies our institutions, States and the Federal 
government have in place on transfer of credit are critical to college 
access and graduation. A community college student whose ultimate goal 
is a four year degree needs to know up front which of his credits will 
transfer. A student who returns to college after several years needs a 
clear understanding of how existing credits will be considered. While 
many students have successful transfer experiences, those who encounter 
problems are those we should be concerned about today. Lost credits 
translate into the need to repeat courses and higher student loan debt.
    States have responded to this problem through various means. Some 
States have created articulation agreements, and others have created 
common course numbering among their institutions. Several State 
legislatures have mandated their colleges and Universities to resolve 
this issue. Unfortunately, too many States have done too little to 
address this problem.
    I do not believe that the Federal government has all the answers 
here. We can and should encourage States and institutions to develop 
systems and policies to ease the transfer of legitimate credits. We 
also must increase the sharing of information between sending and 
receiving institutions. All of this must be done while respecting the 
right of colleges to judge the acceptance of credits based on quality. 
Colleges to which students are transferring must have the information 
to judge the quality and rigor of a student's courses. Unfortunately, 
too little of this happens now.
    H.R. 609, legislation introduced by Chairman McKeon, has several 
provisions which are intended to address difficulties in transferring 
credits. Rather than criticize those provisions, I simply believe they 
do not go far enough. We need to find solutions for students who 
struggle to transfer their credits. I look forward to learning more 
about what we can and should do in a bipartisan pursuit of this goal.
    Thank you Mr. Chairman.
                                 ______
                                 
    Chairman McKeon. Thank you, Mr. Kildee.
    We have a very distinguished panel of witnesses before us. 
I thank you all for being here today.
    First, we will hear from Dr. Philip Day. Dr. Day is 
currently the Chancellor of City College in San Francisco. 
Prior to arriving at City College, Dr. Day served as president 
at community colleges in Florida, Massachusetts and Maryland. A 
global traveler, Dr. Day has served on numerous State and local 
educational agency boards and in leadership positions with 
several professional associations.
    He is currently the founding president of the National 
Articulation and Transfer Network, a voluntary consortium of 
schools dedicated to improving the transfer process to increase 
access to post-secondary education for students.
    I would like to yield now to the Chairman of the Full 
Committee, Chairman Boehner, the gentleman from Ohio, to 
introduce our next witness.
    Mr. Boehner. Thank you, Mr. Chairman. It is my pleasure to 
introduce our second witness today, Dr. Nancy Zimpher.
    Dr. Zimpher is currently the President of the University of 
Cincinnati, not quite in my district, but almost. Prior to 
assuming this role, she served as the Chancellor of the 
University of Wisconsin in Milwaukee, and she was the Dean of 
the College of Education at The Ohio State University.
    Dr. Zimpher has been widely recognized for her expertise in 
a range of higher education issues, and she currently co-chairs 
the Ohio Board of Regents Articulation and Transfer Advisory 
Counsel. The Council implements policies aimed at addressing 
the issues of students that transfer their credits between 
Ohio's colleges and universities, as well as increasing student 
mobility through the Ohio higher education system.
    I just want to say, welcome, and we are glad you are here.
    Chairman McKeon. Following Dr. Zimpher, we will hear from 
Dr. Theresa Klebacha. Dr. Klebacha is the Director of Strategic 
Initiatives with the Florida Department of Education. In this 
position, she oversees the State of Florida's Pathways to 
Success Initiative. This program provides information to 
students about Florida's groundbreaking efforts to provide 
students easier opportunities to transfer credits between 
public and participating private institutions of higher 
education in the State.
    Prior to joining the Florida Department of Education, Dr. 
Klebacha worked in the Florida House of Representatives and as 
an adjunct professor at Illinois State University.
    Finally, we will hear from Mr. Jerome Sullivan. Mr. 
Sullivan is the Executive Director of the American Association 
of Collegiate Registrars and Admissions Officers, AACRAO.
    AACRAO is a nonprofit association of institutions of higher 
education and campus enrollment services officials that provide 
professional development, guidelines and voluntary standards 
for higher education officials and provides a forum for 
discussion regarding policy initiation and development at the 
institutional level.
    Mr. Sullivan's career in higher education has spanned 
nearly 40 years. His particular areas of interest include 
access to post-secondary education, veterans education and 
nontraditional students.
    Before the witnesses begin their testimony, I would like to 
remind you how those lights work. I think you have been told 
you have 5 minutes, and the light is green at the start. And 
when you have a minute left to go, it is yellow, and when your 
time is up, its red light comes on.
    With that, we would like to begin with you, Dr. Day.

   STATEMENT OF DR. PHILIP R. DAY, JR., PRESIDENT, NATIONAL 
      ARTICULATION AND TRANSFER NETWORK, SAN FRANCISCO, CA

    Dr. Day. Mr. Chairman, Members of the Committee, I am 
grateful for the opportunity to address the Subcommittee on 
where the transfer policy in higher education can be improved, 
and I am here to say it can, it must and it will.
    In the spring of 2001, only a few blocks from the United 
States Capitol, the leaders of seven national associations of 
education and several college presidents joined the president 
of Howard University and me in creating the National 
Articulation Transfer Network. We had no office, no staff, no 
funding and no mandate, but, undeterred, we ceremoniously 
signed the cooperative agreement and began work.
    Soon afterwards, at our first coalition meeting, we were 
confirmed in our mission when a student named Aretha movingly 
informed us that she had been accepted as a transfer student 
with a strong grade point average and an accredited degree from 
a prominent community college, but her chosen baccalaureate 
institution had denied most of the 60 credits she had earned, 
leaving only 26 credits, less than 1 year of academic course 
work. The credits were eventually restored through our 
intervention, but it was this Rosa Parks incident that 
galvanized the resolve of NATN.
    The National Articulation Transfer Network is a coalition 
of more than 300 institutions and is chartered as a nonprofit 
organization with a national board of directors. The initial 
member institutions were community colleges, historically black 
colleges and universities, Hispanic service institutions, 
tribal colleges and the Council of Great City Schools. However, 
we have been expanding with Asian-Pacific-Islander-serving 
institutions and other post-secondary institutions.
    Our original sponsors were the major leaders in education, 
including the parent associations of the referenced minority-
serving institutions, as well as AACC, ACE, the Council of 
Great City Schools, the League For Innovation, ASCU and AACRAO, 
the American Association of College Registrars and Admissions 
Officers, as you know.
    The mission of NATN is to improve traditional articulation 
and transfer patterns for students, enabling them to make 
successful transitions from their high school to community 
colleges and on to baccalaureate institutions, with special 
attention to the network of minority-serving institutions.
    We are dedicated to accomplishing this mission not just 
locally or statewide but nationally, as today's students are 
highly mobile, advancing through educational levels and across 
institutions, increasingly moving beyond State borders and 
swirling among traditional and nontraditional levels of career 
training and education.
    The development phase of NATN has been made possible by an 
initial grant by FIPSE, by several congressional allocations 
with assistance from the Congressional Black Caucus and 
Hispanic Caucus and other key legislators and by funding from 
Ford and the Lumina Foundation. We are now seeking funding for 
the next phase of our work, nationalizing NATN.
    The accomplishments of NATN may be described in two areas. 
The first is improving transfer policy and practice. The NATN 
framework classifies transfer at three critical levels: 
institution to institution; program to program; and course to 
course.
    At the institution level, our general academic transfer 
agreement ensures that associate degree graduates who meet the 
admissions requirements of transfer institutions, usually a 2.5 
GPA, can transfer all of their lower division credits to 
fulfill graduation requirements at receiving institutions 
across the country.
    At the program level, we seek consensus on two articulation 
blocks, the general education core curriculum and the field of 
study or major core curriculum. The articulation agreement in 
engineering-related program areas recently negotiated between 
Miami Dade College, a member of our network from its inception, 
with Georgia Institute of Technology, is an excellent example 
of this approach.
    Finally, at the course level, we anticipate a framework 
which replaces traditional course-to-course articulation 
practices with coursework aligned to learning outcomes or 
competencies.
    The second accomplishment of NATN is the development of Web 
technology to facilitate the transfer process. Over the past 2 
years, our interactive Web-based system for students and 
advisers, CollegeStepz, has been developed.
    The initial components are portal and introductory media, 
college information and college search, as well as an 
articulation transfer of information. A searchable data base 
includes information on every college in the country, with 
provisions for their transfer policies and agreements.
    Eventually, and with sufficient funding, CollegeStepz will 
embrace comprehensive articulation transfer processes, online 
communications with advisers, education and career planning, 
financial aid and student tracking. All of this work is 
currently in operation at five regional pilot sites in Atlanta, 
Baltimore-Washington, Houston, San Antonio and San Francisco, 
with additional pilots expected to be under way this summer.
    Let me say in closing what I think is required. There is no 
question that higher education needs congressional support and 
encouragement for a national effort in articulation and 
transfer, but we need the encouragement to do it on a voluntary 
basis, not on a mandatory basis, and certainly not with 
burdensome reporting requirements.
    The colleges and universities are getting the message and 
demonstrating their support for the kind of engagement that 
NATN offers, as evidenced by the participation of the three 
largest associates, ACE, AASCU, and AACC, associations that 
represent over 400 minority-serving institutions, HACU, NAFEO 
and AIHEC and the network of 1,800 Servicemen's Opportunity 
Colleges and, of course, AACRAO.
    We need to encourage support and allow this grassroots 
voluntary approach to prove that higher education can and will 
get the job done. I would suggest, therefore, that in 
conjunction with the reauthorization of the Higher Education 
Act, the adoption of a national goal to significantly increase 
the numbers of students successfully transferring their degrees 
and accelerating baccalaureate degree completion, especially 
for students of color, through voluntarily compliance and 
commitment.
    The National Articulation and Transfer Network stands 
ready, with your support and commitment, to help facilitate the 
achievement of that goal.
    Thank you very much.
    [The prepared statement of Dr. Day follows:]

 Statement of Dr. Philip R. Day, Jr., President, National Articulation 
                and Transfer Network, San Francisco, CA

    Mr. Chairman, members of the Committee, I am grateful for the 
opportunity to address the subcommittee on whether transfer policy in 
higher education can be improved, and I am here to say that it can, it 
must, and it will.
    In the spring of 2001, only a few blocks from the United States 
Capitol, the leaders of seven national associations of education and 
the presidents of an array of colleges and universities joined the 
President of Howard University and me in creating the National 
Articulation and Transfer Network. We had no office, no staff, no 
funding, and no mandate. But undeterred, we ceremoniously signed the 
cooperative agreement and began work. Soon afterwards, at our first 
coalition meeting in Dallas with 25-30 institutions attending, we were 
confirmed in our mission when a student named Doretha movingly informed 
us that she had just been accepted as a transfer student with a strong 
grade-point-average and an accredited degree from a prominent community 
college on the West Coast and seeking to transfer to an East Coast 
institution, but the nationally recognized baccalaureate institution 
had denied acceptance of most of the 60 credits she had earned, leaving 
only 26 credits, less than one year of academic coursework. The credits 
were restored after intervention on our part, but it was this ``Rosa 
Parks'' incident that galvanized the resolve of NATN. I want to tell 
you now what we have done in just a few short years and where we hope 
to go.

What is NATN?
    The National Articulation and Transfer Network is a coalition of 
more than 300 institutions, until recently led by a steering committee 
but now chartered as a non-profit organization with a national board of 
directors. The initial member institutions were Community Colleges, 
Historically Black Colleges and Universities, Hispanic Serving 
Institutions, and Tribal Colleges. However, we have been expanding with 
Asian-Pacific Islander Serving Institutions and other secondary and 
postsecondary institutions. The sponsors who established NATN were the 
major leaders in education: the Hispanic Association of Colleges and 
Universities, the United Negro College Fund, the American Association 
of Community Colleges, the National Association for Equal Opportunity 
in Higher Education, the American Council on Education, the Council of 
the Great City Schools, the League for Innovation in the Community 
College, the American Indian Higher Education Consortium, and most 
recently the American Association of State Colleges and Universities. 
NATN is truly a coalition of forces for change.
    The mission of NATN is to improve traditional articulation and 
transfer patterns through the development of a continuum of pathways 
for students, enabling them to make successful transitions from their 
high schools to local community colleges and on to baccalaureate 
institutions, with special attention to the network of minority serving 
institutions. We are dedicated to accomplishing this mission not just 
locally or statewide but nationally, as today's students are highly 
mobile, advancing through educational levels and across institutions, 
moving beyond state borders, and ``swirling'' among traditional and 
non-traditional forms of career training and education.
    Our accomplishments have derived from the organization of five work 
groups, each with a chairperson and its members drawn from affiliated 
institutions. The work groups have provided guidance with respect to 
the development of articulation and transfer policies, the 
identification and promulgation of best practices, and the launching of 
an interactive web-site as the major resource for students and their 
advisors, CollegeStepz. The work groups, which meet during annual 
conferences, also collaborate through teleconferences and other work 
sessions during the year.
    The development phase of NATN has been made possible by a seed-
funding grant by the U.S. Department of Education's Fund for the 
Improvement of Postsecondary Education, and by Congressional 
allocations between 2002 and 2004, with the assistance of the 
Congressional Black and Hispanic caucuses and other key legislators. 
Additionally, NATN has also received private funding from the Ford 
Foundation and from the Lumina Foundation for Education. We are now 
seeking funding for the next phase of our work, nationalizing NATN.

What is Happening Nationally?
    Before offering further commentary on NATN and its accomplishments, 
I'd like to provide the subcommittee with a brief overview of what 
colleges and universities are already doing to facilitate articulation 
and transfer. Nationally, almost half of the students enrolled in 
college begin their postsecondary education at the community college. 
Of those who enter the community college, almost three-fourths (71%) 
intend to earn a bachelor's degree, including students in vocational 
programs. Still the transfer rate hovers between 20 to 25 percent 
nationally, with minority students lagging as much as 10 to 20 
percentage points below the transfer rate for white students. Some of 
the factors related to the relatively low rate of transfer are heavily 
influenced by patterns of attendance, student flow and numbers of 
credit hours attempted per semester. However, there are other 
institutional and systemic factors that influence this equation as 
well. This is particularly troubling since nearly half of the minority 
students in higher education are enrolled in community colleges. 
Indeed, urban centers such as Chicago, New York, Los Angeles, and 
Detroit have community colleges that enroll ``minority majorities.'' If 
we accept the baccalaureate as a keystone to upward mobility and 
sustained prosperity, then such lackluster transfer rates are 
untenable.
    A recent publication of the American Association of Community 
Colleges and the American Association of State Colleges and 
Universities, Access to the Baccalaureate, identifies several barriers 
that impede the transfer of community college students. Variations in 
institutional policies create situations where course credits are 
transferred but not applied to the major, forcing students to repeat 
courses and adding to their financial burden. Even students who have 
earned traditional transfer degrees, the Associate of Arts or the 
Associate of Science, are finding that limited seats are available 
because of budget cuts and competing priorities. Moreover, there is a 
persistent attitude among four-year faculty that community college 
programs lack academic rigor. And community college faculty, likewise, 
may not trust that their university counterparts will accept transfer 
students, perceiving intransigence instead of interest. Even in states 
where there are highly developed support systems, there are 
insufficient incentives to encourage cooperation between educational 
sectors or reward successful articulation and transfer, and students 
are often left to their own devices to figure out the ``transfer 
maze.''
    Nonetheless, many initiatives and innovations have occurred at 
state and local levels over the past decade. As a result, eighty 
percent of the states have established articulation agreements between 
two and four-year publicly-funded colleges and universities within 
their states. However, the efficacy of such agreements is often tied to 
the specificity of the language and the degree of enforcement. Giving 
transfer more muscle, thirty-three states, such as in Colorado and 
North Carolina, have created legislation that promotes cooperative 
agreements with clearly established guidelines. Twenty-three states, 
with the leadership of state boards of higher education, have developed 
common general education core curricula (e.g., the California 
Intersegmental General Education Transfer Curriculum and the 
Massachusetts Transfer Compact). To support this work, several states 
have established statewide transfer councils. Arizona, for instance, 
has transfer councils composed of two and four-year college 
representatives for every major discipline, overseeing and recommending 
the transferability of courses. A few states--Alaska, Florida, Georgia, 
Idaho, Mississippi, North Dakota, Oregon, Texas, and Wyoming--have 
established common course numbering systems, simplifying the transfer 
process. At the same time, technology has provided sophisticated 
solutions. FACTS in Florida and ARTSYS in Maryland enable students to 
plot out a transfer course to the baccalaureate by examining course 
requirements, programs of study, and course applicability through 
dynamic Web technology.
    Concurrently, many promising curricular initiatives are emerging. 
Florida is developing a K-20 philosophy to focus on the entire 
educational spectrum and enable the smooth transition of students from 
elementary, middle, and high school through the community college and 
the baccalaureate. Colleges in Kentucky and Oklahoma are experimenting 
with ``completer colleges'' that offer a specialized baccalaureate, 
such as a Bachelor of Professional Studies, or a curriculum pathway 
that relates to the associate degree and guarantees full transfer and 
applicability of credits. In another approach, Charter Oaks State 
College in Connecticut and Excelsior College in New York have developed 
baccalaureate degrees that ``consolidate'' credits which students may 
have earned from many different colleges over time. A recent and 
encouraging development is the replacement of the course-to-course 
equivalency model for with a competency-outcomes approach to 
articulation and transfer. Minnesota has a competency structure for 
general education; Maryland has completed an outcomes-based program of 
study for teacher education; and Washington is developing a competency-
based model for transfer. While these initiatives are promising, they 
are nevertheless limited by state borders, leading to the need for, and 
the potential of, a national network to promote best practices and 
effective policy countywide.

What has NATN Accomplished?
    The accomplishments of NATN may be described in two areas: (a) 
fostering the adoption of policies and practices for improving transfer 
and articulation nationally and (b) providing access via web-technology 
to facilitate the transfer process by providing real-time information 
for advising and counseling and to support student success.
    1. Transfer Policy and Practice. NATN has developed a three-tiered 
framework with accompanying models designed to maximize credit 
transfer. The framework is based on extensive research in the field, 
drawing both on the literature as well as best practices across the 
country. Funding by the Lumina and Ford Foundations has fueled this 
research while our work groups have created and refined the models to 
support associate degree articulation for both transfer and career 
programs--AA, AS, and AAS--and promoted regionally through articulation 
and transfer councils organized by NATN.
    The NATN framework classifies transfer at three critical levels: 
institution-to-institution, program-to-program, and course-to-course. 
At the institutional level, our General Academic Transfer Agreement 
ensures that associate degree graduates who meet the admissions 
requirements of the transfer institution--usually a 2.5 grade point 
average-can transfer their lower division credits to fulfill graduation 
requirements at receiving institutions throughout the country. This 
transfer package generally consists of 60 credits, 36 credits in the 
general education core and 24 credits in the major or electives.
    At the program level, we seek consensus on two articulation 
``blocks'', the general education core curriculum and the field-of-
study or major core curriculum. The articulation agreement in 
engineering-related program areas recently negotiated between Miami 
Dade College (a member of our Network from its inception) with the 
Georgia Institute of Technology is in excellent example. Proposed 
agreements at this level draw upon the best practices of states and 
institutions in creating universally applicable core curricula, often 
relying on learning outcomes or competencies as the currency for 
articulation and transfer. Finally, at the course level, we anticipate 
a framework which replaces traditional course-to-course articulation 
practices with coursework aligned to learning outcomes or competencies.
    2. Transfer Technology. Over the past two years, NATN's interactive 
web-based system for students and advisors, CollegeStepz, has been 
designed and developed in partnership with its technology contractor, 
The Rsmart Group. The initial components include a portal and 
introductory media, college information and college search, as well as 
articulation/transfer information. A searchable database includes 
information on every college in the country with provision for their 
transfer policies and agreements. CollegeStepz is now accessible on the 
web at www.collegestepz.net (soon to be .edu). Eventually, with 
sufficient funding, CollegeStepz will embrace major new components for 
comprehensive articulation/transfer processes, online communications 
with advisors, educational planning and career planning, financial aid, 
and student-progress tracking.
    All of this work, promoting new transfer policies and practices 
through articulation-transfer councils and using the web for student 
success, is currently in operation at five regional pilot sites--in 
Atlanta, Baltimore/Washington, Houston, San Antonio, and San 
Francisco--with additional pilots expected to be underway this summer.

What is Needed?
    In the beginning of this testimony, I suggested that we can and 
will improve transfer and articulation in higher education. Now, let me 
say, in closing, what is required. There is no question that higher 
education needs Congressional support for a national effort. But we 
need the encouragement to do it on a voluntary, good faith basis, not 
on a mandatory basis and certainly not with burdensome reporting 
requirements. Colleges and universities are getting the message and 
demonstrating their support for the kind of engagement that NATN 
offers, as evidenced by the participation of the three largest 
associations (ACE, AACC, AASCU), associations that represent over 400 
minority serving institutions (HACU, NAFEO, and AIHEC), and the recent 
partnership agreement between NATN and the network of the 
Servicemembers' Opportunity Colleges and CONAP Institutions (1800 post-
secondary institutions). We need to encourage, support and allow this 
grass roots, voluntary approach to prove that higher education can and 
will get the job done. I would suggest, therefore, in conjunction with 
the re-authorization of the Higher Education Act, the adoption of a 
national goal to significantly increase the numbers of students 
successfully transferring their degrees and accelerating baccalaureate 
degree completion, especially students of color,...through voluntary 
compliance and commitment. The National Articulation and Transfer 
Network stands ready, with your support and commitment, to help 
facilitate the achievement of that goal.
                                 ______
                                 
    Chairman McKeon. Thank you.
    Dr. Zimpher.

  STATEMENT OF DR. NANCY L. ZIMPHER, PRESIDENT, UNIVERSITY OF 
                   CINCINNATI, CINCINNATI, OH

    Dr. Zimpher. Thank you, Chairman McKeon, Congressman 
Kildee, Members of the Subcommittee, Ohio Members Boehner, 
Tiberi and Ryan, and I want to thank especially State 
Representative Shawn Webster back in Ohio for the leadership he 
has provided in the model we are going to discuss on credit 
transfer policies in Ohio.
    Ohio has made significant changes in its transfer and 
articulation policies, changes that will make the transition 
from high school to college seamless and provide many more 
options for students to be successful. Thinking ahead, 3 years 
to 2008, a sample scenario provides a more concrete way to 
illustrate the impact of Ohio's changes.
    Latoya is a high school junior attending Cincinnati public 
schools. She is thinking about majoring in nursing, and thanks 
to Ohio's academic content standards, she has already taken 
algebra I and II and geometry, good advice from her guidance 
counselor for a career in nursing.
    As a first-generation college student, she is a little 
unsure what she needs to do to get ready for college, but in 
Ohio, Latoya has a plan. She goes to Ohio's New Student Portal, 
a Web-based access point for information about college 
requirements, cost, application, financial aid materials.
    Her guidance counselor suggests that she might want to look 
at the courses on the student portal about nursing, which we 
call Ohio's New Transfer Assurance Guide, not only in nursing 
but in 38 career pathways, where students can identify the 
courses they need to take, both in high school and in college, 
to become, say, a nurse.
    She also learns from this portal what she can take in high 
school that will feed her major, and she can do so through 
Ohio's post-secondary enrollment option without paying 
additional fees for courses that she takes in high school that 
feed her major.
    After high school graduation, Latoya decides she wants to 
start her college study in a local community college, in this 
case Cincinnati State Community and Technical College. There 
she can stay home, get acclimated to college, take courses at a 
very affordable price and make progress on gen-ed and nursing 
degree requirements. She knows that she can choose courses, 
including courses in nursing, that are guaranteed for transfer. 
She plans to transfer after 2 years to the University of 
Cincinnati. Good idea. But this will give her a very affordable 
way to begin her degree.
    So Latoya submits her electronic portfolio of high school 
and college post-secondary classes to Cincinnati State via the 
State's newly christened electronic clearinghouse for 
transcript transfer. Cincinnati State evaluates her portfolio 
of courses and applies the appropriate credit to her college 
transcript.
    She begins taking her gen-ed courses and her foundation 
courses for nursing, which she found in Ohio's Transfer 
Assurance Guide. She knows that she has the State's guarantee 
that her courses will transfer, and, when the time comes, her 
college transcript is transmitted electronically to UC.
    For Latoya, the process is easy. The State has made her 
transfer of courses as simple as accessing her account with her 
college ATM card. She knows her educational account balance and 
can plan accordingly. She can focus on her courses, not on 
filling out forms and standing in line.
    This is a win-win for students, for our colleges and 
universities and for our State. The students can plan a 
seamless pathway from high school to college. Campuses get more 
prepared students, making progress to degree, and the State 
gets a highly trained workforce.
    This is a wonderful scenario. We are more than 60 percent 
of the way there through our Ohio Transfer Module, through 
these transfer assurance guides and through the use of our 
course applicability system.
    As you might guess, this elegantly simple articulation and 
transfer process did not evolve overnight. Building on our 
original Ohio transfer module concept, public policymakers in 
Ohio raised the bar significantly 2 years ago through House 
Bill 95, mandating the removal of any remaining barriers to 
Ohio's articulation transfer policies.
    To meet this challenge, Ohio engaged all of its presidents, 
provosts and significant academic administrators at our 37 2- 
and 4-year public institutions and invited representatives from 
our private 4-year colleges to participate. We convened over 50 
committees, composed of campus leaders and over 400 faculty 
members. Countless volunteers reviewed courses and curricular 
activities.
    In the fall of 2005, now, all students in Ohio public post-
secondary systems will be able to access this remarkable set of 
transfer guides. Thanks to our Ohio Higher Education 
Information System, all public 2- and 4-year institutions will 
have electronic transcripts by 2006. By 2007, all Ohio college-
bound students will be using their very own ATM card, college 
access card, to ensure full access to Ohio's transfer 
guarantee.
    Obviously, this Subcommittee has recognized that what works 
in Ohio just might work for the Nation. We hope our efforts 
serve not only as a model for others, but underscore the 
complex mixture of academic decisionmaking and faculty seat 
time, bolstered by a very sophisticated data system that is 
today making the dream of transferability a reality in Ohio.
    I thank you for your interest and would be happy to answer 
questions.
    [The prepared statement of Dr. Zimpher follows:]

  Statement of Nancy L. Zimpher, President, University of Cincinnati, 
                             Cincinnati, OH

    Chairman McKeon, Ranking Member Kildee, and Members of the 
Subcommittee on 21st Century Competitiveness of the Committee on 
Education and the Workforce, thank you for this opportunity to describe 
a statewide initiative that will, I believe, provide a model for 
discussion during this hearing on credit transfer policies. My name is 
Nancy Zimpher. I'm President of the University of Cincinnati and Co-
chair of Ohio's Articulation and Transfer Advisory Council of the Ohio 
Board of Regents.
    Ohio has made significant strides forward in ensuring that students 
have easy access to all the resources of the state's comprehensive 
system of public colleges and universities. Like many other states, we 
have grappled with very difficult conceptual, educational and 
logistical issues in developing a new policy for statewide transfer. 
Ohio's model for transfer and articulation might serve as a useful 
resource to other states challenged by similar issues. Students are 
very mobile. Consequently, the opportunity to easily transfer courses 
among campuses is a foundation for improving student access and success 
in college. Educational access is critical, especially in a state like 
Ohio, with its diverse education system. Therefore, Ohio needed to 
consider all the various dimensions of access: affordability, 
availability, aspiration, and academic preparation.
    Ohio is a state that needs to increase the college education level 
of its citizens to meet the needs of the knowledge economy and provide 
the workforce of the future. In today's economy, it is increasingly 
clear that learning must extend beyond high school. New knowledge is 
being created at unprecedented rates and innovative technologies are 
transforming old jobs and creating new ones. Being ranked 39th in the 
nation for the percentage of its population with a bachelor's degree 
doesn't bode well for the future of Ohio. We must seize on every 
opportunity to increase the college participation of our citizens and 
remove barriers that inhibit the mobility of students throughout the 
higher education system.

Background
    Ohio's articulation and transfer system is elegantly simple in 
concept. Students will now be able to begin a course of study at any 
college or university in Ohio and be guaranteed that significant 
credits will transfer and apply to degree requirements statewide. The 
policy places students squarely in the center of the educational 
system. Further, since students make educational choices based upon 
convenience, cost, interest, location, program availability and other 
such factors, Ohio's new system removes barriers to these choices.
    Ohio has actually been in the business of articulation and transfer 
for 15 years. The first phase of the Articulation and Transfer Policy, 
established in 1990, was a major achievement for the state at that 
time. It improved the mobility of students by developing a foundational 
concept: the Ohio Transfer Module. Students taking a complete module of 
36-40 semester hours or 54-60 quarter credit hours comprised of general 
education courses like English, math, and biology were guaranteed that 
these courses would transfer statewide and take the place of the module 
at the receiving institution. To ensure comparability of courses across 
institutions, a statewide faculty committee reviewed each course's 
level and rigor within the module.
    We encountered a few difficulties. Students often just take 
courses, not full modules. Consequently, if students didn't complete 
the entire transfer module, they lost the ability to transfer courses. 
The full intent of Ohio's transfer and articulation policy was not 
being maximized in a way that would significantly provide students 
access and success in college.
    We began designing the next phase of the transfer and articulation 
process a little over two years ago. Our work coincided with a 
legislative mandate to fix any barriers and challenges that students 
might be experiencing in the transfer of coursework. The General 
Assembly gave us an aggressive time line to complete this work (April 
15, 2005) and the flexibility to design the best strategy. We met the 
deadline. The final report is written, and we are into full-scale 
implementation. Students enrolled this coming fall will have a 
statewide transfer guarantee that ensures they can make progress in one 
of 38 different baccalaureate degree pathways, anywhere within the 
public higher education system and in Ohio's participating private 
institutions.

Ohio's Revised Policy
    A few basic guiding principles framed Ohio's effort to revise its 
transfer and articulation policy. Student success was the central focus 
of the policy, rather than convenience to the state or campuses. 
Students can expect fair treatment in the transfer and application of 
credits to major/degree requirements and will be considered the same as 
any student beginning or ending college on the same campus, what some 
have called ``native'' students. Campus missions are preserved: 
community colleges continue to focus on access to college, workforce 
training, and programs offered at the associate degree level. The 
public and private universities are the primary providers of 
baccalaureate education. Finally, campus authority and autonomy is 
maintained. Presidents, provosts and more than 300 faculty provided 
leadership for the development of the new policy. While the Board of 
Regents and the General Assembly were the driving force behind the 
initiative, the Articulation and Transfer Advisory Council was a 
critical entity in establishing the framework for the policy, one that 
would work for Ohio's campuses and students.
    With one significant change, the Ohio Transfer Module continues to 
be the foundation of the transfer and articulation process. Students 
will now be guaranteed the transfer of individual courses from the 
general education module, without the need to complete the entire 
module. A faculty subcommittee will continue to review courses for 
rigor, level and appropriateness as part of the on-going process.
    At the heart of Ohio's revised approach to articulation and 
transfer is a new concept, the Transfer Assurance Guide (TAG). Transfer 
Assurance Guides have been developed in 38 degree pathways for students 
in eight disciplines/professions: arts and humanities, business, 
communications, education, health, mathematics and science, engineering 
and engineering technologies, and social sciences (see appendix A for a 
list of disciplines). These pathways build on the general education 
core by identifying major and pre-major courses that are also 
guaranteed to transfer and apply to requirements anywhere in the 
system. The Transfer Assurance Guide also becomes a primary vehicle for 
advising students, even before the student leaves high school; another 
building block to a truly seamless P-16 system in Ohio. This initiative 
will fundamentally change how transfer and application of credits will 
occur in Ohio and builds upon a decade and a half of work on improving 
transfer.
    Each TAG represents a specific pathway such as nursing, 
mathematics, engineering, education, sociology or business. Under the 
direction of the Ohio Board of Regents, 38 teams of faculty from two- 
and four-year colleges and universities were brought together for each 
Transfer Assurance Guide. Over a series of meetings, the teams 
identified courses for each TAG and developed learning outcomes for 
each course. The learning outcomes are the mechanism to ensure rigor, 
quality and equivalency of courses across the system.
    Campus leaders reviewed the Transfer Assurance Guides on multiple 
occasions, provided comments back to the faculty panels, and ultimately 
agreed to abide by the guaranteed transfer of courses in the TAGs. 
This, as you may imagine, was not an easy process and many compromises 
were made to arrive at final agreement on the course content of each 
TAG (see appendix B for sample TAGs). Panels also made recommendations 
of courses within the general education module that will help students 
make appropriate choices for their intended major.
    While the TAGs are relatively simple in concept, the results are 
truly impressive. They represent a guarantee to students of academic 
pathways to majors that ensure improved advising and a certainty of 
course transfer and, more importantly, application of courses to the 
major and degree. They remove barriers to transfer and allow for 
student mobility across the system while ensuring the quality of the 
educational experience through regular review by the faculty 
subcommittee. Students that select courses in the TAG will know that 
they will transfer, and they will not need to repeat the course at 
another college or university, thus maximizing both student and campus 
resources.

Implementation
    The logistics of implementing such a comprehensive system of 
transfer are complex. The Ohio Board of Regents is fortunate to have a 
world class information system, the Higher Education Information (HEI) 
system, as the backbone for electronic implementation. Using the course 
titles and learning outcomes in each Transfer Assurance Guide, campuses 
will identify equivalent courses and report them to HEI in order to 
produce a statewide matrix of course matches. This course matrix will 
be shared with all campuses and serve as the universal course 
equivalency index for the state higher education system. The universal 
course equivalency system will make it possible for colleges and 
universities to guarantee that courses offered at different campuses 
are equivalent and transferable for credit and to meet major/degree 
requirements. By August 31, 2005, all campuses will have submitted 
information on applicable courses in each TAG. Beginning in autumn term 
2005, students will be able to complete courses and be guaranteed 
transfer and articulation to degree requirements should they elect to 
transfer in the winter of 2006.
    We envision, however, a much more sophisticated transfer of 
information through the development of a statewide Clearinghouse (Hub) 
for the instant electronic transfer of transcripts between campuses, 
both sending and receiving (see appendix C for a diagram). Students 
will benefit from this system that has the speed and accuracy to 
process very complicated data, and potentially many courses from a 
variety of institutions. Campuses will benefit with greater efficiency 
through creating a ``one-stop shop'' for processing the TAGs and 
transcripts. We will also be able to develop a statewide application 
process with the capacity to process high school transcripts in 
addition to college transcripts. The Clearinghouse will offer students 
access to a full array of electronic resources to assist them in 
reaching their ultimate educational goal.
    Ohio is also fortunate to have invested in the development of an 
electronic, web-based advising tool to assist students and advisors in 
transfer. This electronic advising/transfer tool, the Course 
Applicability System (CAS), provides students and potential students an 
efficient way to see how courses transfer across the system and how the 
credits apply to a degree. All public campuses have implemented CAS as 
an advising tool for use by advisors and students.

Ongoing Agenda
    The Ohio Board of Regents envisions that with the full development 
of the transcript clearinghouse, students will eventually have access 
to a seamless electronic system for college application and transfer, 
P-16. This will include an even greater electronic access to 
employment, career, college and financial aid information. We will also 
be developing more pathways (TAGs) in the future. The focus on learning 
outcomes provides us with the opportunity to broaden our thinking about 
education and include other models of how students learn and 
demonstrate mastery of concepts (i.e. internships and field 
experiences, portfolio based learning, interdisciplinary experiences). 
The notion of describing specific levels of learning mastery is a major 
paradigm shift and will more closely mirror the mastery of learning 
that students will need to exhibit in actual work settings, thus 
providing an opportunity to make learning more transferable and 
integrated.

Conclusion
    Ohio is implementing systemic change through one of the most 
comprehensive and expansive curricular reforms in the state's higher 
education history. Students will have the benefit of stronger and more 
informed advising and will have options available that meet specific 
needs (cost, location, etc.). They also will gain state assurance that 
a consistent level of quality and rigor is maintained, backed by the 
state's guarantee for the transfer and application of credits to 
degrees. Ohio will have the benefit of a better and more effectively 
prepared workforce. State resources will be more efficiently and 
effectively deployed, and the success of the policy will be easy to 
assess. We have put the student in the driver's seat in transfer and 
have provided the tools to navigate the education system to his or her 
highest educational aspirations.
    Ohio's significantly enhanced articulation and transfer policies 
and processes will substantially increase opportunities for students to 
be successful in attaining educational goals. The full implementation 
of the policy is a critical element of Ohio's efforts to improve 
educational access and success and, in turn, begin to bridge the gap of 
low educational attainment. These strategies are critical in meeting 
the needs of the knowledge economy and the workforce of the future.
    Thank you very much for the opportunity to testify, and I look 
forward to any questions you may have.
    [Attachments to Dr. Zimpher's statement follow:]

    [GRAPHIC] [TIFF OMITTED] T1019.001
    
    [GRAPHIC] [TIFF OMITTED] T1019.002
    
    [GRAPHIC] [TIFF OMITTED] T1019.003
    
    [GRAPHIC] [TIFF OMITTED] T1019.004
    
                                ------                                

    Chairman McKeon. Thank you very much.
    Dr. Klebacha.

  STATEMENT OF DR. THERESA A. KLEBACHA, DIRECTOR OF STRATEGIC 
 INITIATIVES, FLORIDA DEPARTMENT OF EDUCATION, TALLAHASSEE, FL

    Dr. Klebacha. Good morning, Chairman McKeon, Congressman 
Kildee and Members of the Committee.
    My name is Theresa Klebacha, and, as the Chairman 
mentioned, I am the Director of Strategic Initiatives for the 
Florida Department of Education under Commissioner John Winn. 
Thank you for inviting me to share with you Florida's 
achievements in student transfer and success. In honoring my 
time limit, I would like to dedicate my 5 minutes to making 
three points about Florida's Pathways to Success.
    One, it is all about the student. Florida's education 
mission is very simple: Improve student learning and 
achievement. We do this by striving to meet four goals: One, 
maximize student achievement; two, provide access opportunities 
and move students seamlessly across and between systems; three, 
support academic programs that contribute to a skilled 
workforce and economic development; and four, do all this in a 
way that both maximizes both taxpayer dollars and student 
return on investment. Our focus on the student has been 
fundamental to our policies in Florida for decades.
    The second point about our Pathways to Success, an 
effective transfer system requires a comprehensive approach. 
Florida has a comprehensive articulation infrastructure that 
supports movement of students through the system down to the 
basic course level. We have several mechanisms in place that 
make this happen.
    First, we support a two-plus-two system, where the first 2 
years of a community college associate degree coursework is 
guaranteed transfer to a State University. There, the second 2 
years build toward a bachelor's degree for that student. Our 
statewide articulation agreement guarantees the transfer of 
credit without requiring students to repeat courses.
    The second mechanism we have is that we engage 
practitioners from the field to provide State level approval of 
common prerequisites, in other words, major core curriculum, 
those course requirements for all bachelor degree programs. 
These courses are also guaranteed transfer among institutions 
into a degree program. This allows the students to know ahead 
of time what courses are required in their desired field, and 
they can plan their programs of study using our unique online 
student advising system.
    Our third mechanism is that we support a course numbering 
system that is the building block of our guaranteed transfer 
policy. Our State practioner group engages faculty discipline 
committees to assign course numbers based on course content and 
faculty credentials. This system is what makes it possible for 
students to transfer credit effortlessly as they move among 
institutions.
    To top it all off, in Florida, we put money behind student 
program completion, transfer to higher academic levels or 
placement into a job. This performance funding inspires 
institutions to focus on outcomes of moving students through 
and out, rather than loading student seats up front.
    The third point that I would like to make about our 
Pathways to Success is that, if you build it, they will come. 
In other words, what I mean by that is it is not just about 
public education. Our independent institutions recognize the 
benefits of a system for students, and they also participate. 
They have seats on our State level practitioner group that 
makes decisions. They participate in our online student 
advising system. They, too, have their own two-plus-two 
articulation agreement with our community colleges. And they 
participate in our common course numbering system to guarantee 
the transfer of their credit to our other institutions. 
Proprietary schools, in particular, are very interested in and 
are taking advantage of this opportunity.
    The independent institutions do all this voluntarily in 
Florida. They see the benefit of advertising the guaranteed 
transfer of credit for their students.
    In closing, I will summarize Florida's three keys to 
success: One, focus on what is best for students; two, take a 
comprehensive outcome-based approach to transfer policy; and 
three, create mechanisms that invite and engage both public and 
private involvement.
    I applaud your desire to make it possible for any student 
in the Nation to experience the same rights and benefits that 
Florida students already have.
    Thank you, Mr. Chairman and Members, for allowing me, on 
behalf of Florida, to be a part of your conversation. I welcome 
your comments and questions.
    [The prepared statement of Dr. Klebacha follows:]

      Testimony of Dr. Theresa A. Klebacha, Director of Strategic 
     Initiatives, Florida Department of Education, Tallahassee, FL

    Chairman McKeon, Congressman Kildee, and Members of the Committee:
    Good morning. My name is Theresa Klebacha, and I am the Director of 
Strategic Initiatives for the Florida Department of Education under 
Commissioner John Winn. Thank you for the invitation to appear before 
you today to share with you Florida's advances and achievements in 
student articulation and success.
    With 55.4% in 2002, Florida ranked 27th in the percentage of public 
high school students continuing into some level of postsecondary 
education immediately after graduation. Our state has been recognized 
as a nationwide leader in creating a ``seamless'' transfer process for 
these students. In fact, more than 70% of community college Associate 
in Arts (AA) degree graduates in Florida now transfer to four-year 
institutions and pursue bachelor's degrees within five years of 
completing the AA.

Florida supports a vision of highest possible achievement for all 
        students.
    In 2001, Florida moved to a K-20 education system, identifying 
improving student learning and achievement across public and private 
education systems as the primary mission. This mission, as established 
in law, requires specific attention be directed to meeting four 
statewide goals:
    1. Highest Student Achievement
    2. Seamless Articulation & Maximum Access
    3. Skilled Workforce & Economic Development
    4. Quality Efficient Services
    This morning I will focus my attention on Florida's efforts at 
meeting the goal of Seamless Articulation and Maximum Access. In 
particular, I will overview our policies and practices, and spend some 
time addressing how these policies maximize a student's ability to move 
seamlessly within and between both public and private institutions. 
Rather than read to you, I will paraphrase my comments and welcome your 
questions at the end.

Florida strives to maximize students' movement through and across 
        systems.
    Basic to efficient and effective articulation is the appropriate 
alignment of curriculum and testing standards for K-20. This means 
mechanisms must be in place to ensure that every student is prepared 
for the next level of instruction before being promoted. An ultimate 
goal is to ensure that graduation from high school means a student is 
ready for college level work, without the need for remediation. 
Students must first be provided access to quality instructional 
opportunities.
    Florida ensures geographic access to postsecondary opportunities 
through its strategic placement of 11 state universities, 28 community 
colleges, and 38 vocational-technical and adult education centers. 
Additionally, Florida is home to 27 college and university members of 
the Independent Colleges and Universities of Florida (ICUF), and over 
600 proprietary institutional members of the Florida Association of 
Postsecondary Colleges and Schools. All are appropriately licensed for 
operation in the state.
    Financial access to postsecondary education is provided through 
state operational support that is balanced with a variety of student 
financial aid options. This aid may be in the form of grants, loans, 
scholarships, and/or various forms of employment. Financial aid can 
come from several sources and agencies including the federal 
government, the State of Florida, the colleges and universities, and 
private organizations.
    While access is an important component to ensuring student 
advancement, Florida recognizes that equally as important is the 
ability of the student to move across and within systems as 
transparently and efficiently as possible.

Florida has a comprehensive articulation policy infrastructure.
    Decades of legislative and policy decisions have contributed to 
Florida's comprehensive articulation infrastructure. Unlike other 
popular priorities that are implemented one policy direction at a time, 
much care has been taken in Florida to create and nurture an entire 
infrastructure of policies and practices that link and build into a 
comprehensive articulation plan. The strength of the plan is its 
recognition of the nature of student movement through postsecondary 
education in Florida.
    Many Florida students begin their college education at one of 
Florida's open admissions community colleges, but plan to pursue a 
bachelor's degree at one of Florida's public or independent four-year 
colleges or universities. Currently, more than half of the juniors and 
seniors in the State University System, as well as many students 

attending independent four-year colleges and universities, began their 
postsecondary work at a community college.
            Florida supports a ``2+2'' system of student advancement.
    The Associate in Arts (AA) degree is designed for students who 
intend to earn a bachelor's degree from a four-year college or 
university. The AA degree program meets general education requirements 
as well as common prerequisites for a student's intended major. The 
degree requires 60 semester credit hours and ensures admission to a 
Florida public university.
    Florida law provides for a Statewide Articulation Agreement that 
ensures a seamless transfer process between and among postsecondary 
institutions. This agreement ensures that if a student completes an AA 
degree, admission to the State University System is guaranteed. During 
the student's enrollment as a junior and senior at the university, the 
student will not be required to repeat courses already satisfactorily 
completed. It protects the transfer of equivalent courses and the 
general education program completed by students during the freshman and 
sophomore years at Florida public community colleges.
    Additionally, state law requires all bachelor degree programs be 
restricted to 120 semester credit hours in length, unless otherwise 
approved at the state level, therefore ensuring that half of the degree 
can be met through the AA lower-division work. These common program 
lengths are intended to minimize the number of hours required for a 
student to earn a degree while ensuring the quality of the educational 
program.

            The general education ``core'' is guaranteed transfer.
    The Statewide Articulation Agreement also addresses the transfer of 
general education coursework. The state's 36-hour general education 
program is designed to introduce college and university students to the 
fundamental knowledge, skills, and values that are essential to the 
study of academic disciplines. General education requirements include 
courses within the subject areas of communications, mathematics, 
humanities, social sciences, and natural sciences. The agreement 
stipulates that public universities and participating ICUF institutions 
cannot require students to take additional general education courses if 
they have already successfully completed a general education sequence 
at a community college.

            Common prerequisites are identified, published and 
                    guaranteed transfer.
    Although completion of a community college AA degree guarantees 
admission into the State University System, admission to a specified 
program at a given university may not be guaranteed, particularly if 
prerequisite courses were not completed by the student. Prerequisite 
courses are required lower-division courses students must successfully 
complete for a specific bachelor's degree. To assist students in 
planning for transfer to desired degree programs, the state requires 
identification and approval of ``common'' prerequisites across program 
areas. Common prerequisite courses have been identified for more than 
600 university bachelor's degrees across all public institutions. Since 
Fall of 1996, common prerequisites have been offered and accepted by 
state universities and community colleges.

            Common course numbering makes the statewide guaranteed 
                    transfer of credit possible.
    Florida's Statewide Course Numbering System establishes the 
``building block'' mechanism that allows the articulation 
infrastructure to function. The system facilitates the transfer of 
coursework by classifying courses according to subject matter and 
faculty credentials, as assigned by one of 166 faculty discipline 
committee coordinators. There are currently over 100,000 active courses 
in the system. All public universities, community colleges, and 
postsecondary vocational-technical centers are required to participate. 
Private postsecondary institutions may volunteer to participate in this 
numbering system for a fee established in rule.
    According to Florida law, an institution accepting a transfer 
student from another participating institution must award credit for 
satisfactorily completed courses which are equivalent to courses 
offered by the receiving institution, including consideration of 
faculty credentials. Credits awarded must satisfy the requirements of 
the receiving institution on the same basis as credits awarded to 
native students. The credit awarded must be as though the course was 
taken at the receiving institution.

Several ``best practices'' keep the articulation policy focused and 
        refined.
            The Articulation Coordinating Committee represents the 
                    involvement of practitioners.
    To help coordinate this transfer process, representatives from 
various public and private educational sectors meet regularly as the 
statewide Articulation Coordinating Committee. This Committee was 
formed in the early 1970s to discuss ways to help students move easily 
from institution to institution and from one level of education to the 
next. Primary responsibilities include approving common prerequisites 
across program areas, approving course and credit-by-exam 
equivalencies, overseeing implementation of local articulation 
agreements, and recommending articulation policy changes.

            Institutions are ``rewarded'' for student advancement and 
                    progress.
    In the late 1990's, Florida implemented performance funding 
structures that ``paid'' institutions for student completion of 
programs, continuous enrollment in higher learning, placement into a 
job, and retention in a job. Implemented primarily in the workforce and 
community college systems, the performance payment system resulted in 
the streamlining of programs and alignment of resources to support 
student advancement through the systems rather than payment for getting 
students into the programs (a.k.a., ``seat time'' funding). As 
institutions were funded based on student advancement, they sought and 
supported partnerships with employers and public and private 
institutions.

            Online student academic advising provides information and 
                    guidance to citizens.
    In 1995, Florida created the Florida Academic Counseling and 
Tracking for Students (FACTS) system as its central web resource for 
postsecondary education advising. ``FACTS.org'' is available to assist 
users in determining career objectives, choosing the major and 
institutions that are best suited for them, applying for admission and 
financial aid online, and tracking their progress toward a degree or 
certificate. Students can also plan their courses and access their 
grades and transcripts online. ``FACTS.org'' is the official repository 
for several manuals and documents related to student advising and 
articulation. This includes counseling handbooks, a common prerequisite 
manual, a statewide articulation manual, the Independent Colleges and 
Universities of Florida Articulation Agreement, Credit-by-Exam 
Guidelines, Acceleration Mechanism Options, and a High School Planner. 
Florida is expanding ``FACTS.org'' to provide degree auditing functions 
to high school students that wish to plan their high school curricula 
in preparation for course requirements in desired postsecondary 
programs of study.
    I would like to conclude my remarks by speaking briefly about the 
involvement of Florida's independent postsecondary institutions in our 
statewide articulation efforts.

Florida embraces its partnership with independent postsecondary 
        institutions.
    In addition to providing independent postsecondary institutions 
with state financial aid funding for student enrollment, representation 
on the Articulation Coordinating Committee, and participation in 
Florida's online student advising system (``FACTS.org''), there are two 
primary ways these institutions play an integral role in the 
articulation of Florida students.
    One primary mechanism of independent involvement is through a 
statewide articulation agreement, signed by the State of Florida and 
the ICUF organization, to establish provisions for the transfer of 
Associate in Arts degree students into private colleges and 
universities. The Agreement guarantees that community college AA degree 
students will enter as juniors, receive 60 credit hours toward their 
bachelor's degree, and receive recognition of the general education 
core courses taken at the community college. As regionally-accredited 
institutions, the transfer of credit is already guaranteed, but the 
agreement focuses on the transfer within degree programs. Most of the 
ICUF institutions have volunteered to recognize this agreement.
    A second, potentially more expanding role involves integration of 
independent institutions into the mechanics of the articulation 
process. In 1998, Florida law was amended to allow independent colleges 
and schools, that are fully accredited by a regional or national 
accrediting agency recognized by the United States Department of 
Education and are licensed to practice in Florida, to participate in 
the Statewide Course Numbering System. Of the 100,000 active courses, 
currently there are over 3,000 courses from 32 participating 
independent institutions in the system. Of these, over 1,800 are 
automatically transferable to at least one institution's AA or 
bachelor's degree program. For a fee, proprietary institutions choose 
to participate in the system as a way to ensure students that credits 
earned will be accepted upon transfer to any other participating 
institution.

In conclusion, Florida is poised to assist as needed.
    I am very proud to report that Florida's comprehensive approach to 
``Seamless Articulation and Maximum Access'' continues to support 
policy innovation and student achievement. With these mechanisms, 
Florida has been successful in maximizing the state's and Florida 
families' return on investment for dollars invested in postsecondary 
education.
    I applaud your efforts to strengthen policies on a national level 
to facilitate student movement; to put policies in place that do not 
require a student or taxpayer to pay twice for the same instruction; 
and to do it in a way that does not jeopardize the quality and 
integrity of instructional programs.
    Thank you for allowing me, on behalf of Florida, to play a small 
part. I welcome any and all of your comments and questions.
                                 ______
                                 
    Chairman McKeon. Thank you very much.
    Mr. Sullivan.

 STATEMENT OF JEROME H. SULLIVAN, EXECUTIVE DIRECTOR, AMERICAN 
 ASSOCIATION OF COLLEGIATE REGISTRARS AND ADMISSIONS OFFICERS, 
                         WASHINGTON, DC

    Mr. Sullivan. Chairman McKeon, Ranking Member Mr. Kildee, 
Members of the Subcommittee, my name is Jerry Sullivan, and I 
am the Executive Director of the American Association of 
Collegiate Registrars and Admissions Officers. I am very 
honored to be here today.
    AACRAO is a nonprofit association of more than 2,400 
institutions of higher education and approximately 10,000 
campus enrollment service officials. As a national organization 
of transfer of credit administrators who both send and receive 
students, AACRAO is in a unique position to address this 
hearing's topic. We recognize both great successes and 
challenges in the current state of transfer and portability of 
credit.
    Transfer and articulation are complex phenomena involving 
planned and unplanned movements of students among institutions 
of higher education. The fundamental challenge with transfer, 
whether planned or unplanned, is to aggregate coursework 
conducted at different institutions with different academic 
policies, different curricula and different levels of expected 
rigor.
    The institutional transfer process is complex and 
deliberate, typically involving transfer professionals and the 
faculty. It requires in-depth analysis of every course entry on 
the transcript. Credit evaluation involves three distinct 
judgments: First, an assessment of the quality of the course; 
second, an evaluation of its comparability to courses at the 
receiving institution; and finally, the course work must be 
determined to be applicable to the program of study for which 
the student has applied. The three-pronged standard benefits 
students by ensuring they are not inappropriately placed in 
courses for which they are ill-prepared.
    Variations in institutional resources and staff complicate 
credit evaluation. At many institutions, evaluations are 
captured in course equivalency data bases that are available to 
evaluators as a means of expediting the process. At most 
institutions, however, the process is entirely manual and is 
driven by the experience and the knowledge of evaluators.
    At the State level, numerous efforts are underway to 
promote transfer. States have employed various approaches, 
ranging from informal efforts of transfer professionals that 
try to do right by the student to more formal institution-based 
agreements to State-mandated policies. Today, nearly every 
State has some policy on the transfer of credit.
    For students moving from 2- to 4-year institutions, the 
States in general make tremendous efforts at setting up 
articulation mechanisms, including Web sites that can be easily 
accessed by students, parents and counselors.
    There are many nongovernmental national efforts in place to 
supplement institution-to-institution and State articulated 
policies. Since 1977, AACRAO, for example, has maintained a 
data base of institutional transfer credit practices. We are 
currently engaged in a major effort to expand this data base 
for use by institutions.
    Since 1978, we have maintained an agreement with the 
American Council of Education and the accreditation community 
called the Joint Statement on Transfer and the Award of Credit.
    I want to recognize the contributions of my fellow 
panelists for their efforts to streamline transfer. The 
National Articulation and Transfer Network, with which AACRAO 
is pleased to be associated, is an important resource and 
model. In Ohio, the development and implementation of the 
Degree Ordered Reporting System, DARS, and Course Applicability 
System, CAS, have proven effective at streamlining 
equivalencies and portability.
    Inefficiencies in the system: Well, while institutional and 
State systems for transfer credit are largely successful, we 
know that the system can be improved. The challenge is to 
understand how credit determinations are made, how they are 
made erroneously from time to time, and how to improve that 
process.
    Effective State policies are at the heart of programmatic 
success and degree attainment for transfer students. We believe 
that Federal policy could supplement these efforts, however, 
and I would like to offer a few suggestions.
    Federal transfer policies should be based on assumptions 
that encourage students to matriculate toward degree 
completion, that maintain a balance between public benefit and 
administrative burden and that continue to recognize the 
institutional economy of curricula and degree requirements. 
Policies should not be one-size-fits-all.
    First, the Federal Government could facilitate volunteer 
data collection to provide receiving institutions with more 
detailed information about courses for which credit is sought 
by incoming transfer applicants. One possible information 
collection dissemination mechanism for the effort could be the 
College Opportunities Online Portal of the U.S. Department of 
Education's Web site.
    Another possible portal for submission of course 
information would be the CollegeStepz web site, operated under 
the auspices of the National Articulation and Transfer Network. 
Such a site would voluntarily collect information, like 
institutional course inventories, catalog descriptions, 
syllabi, textbooks and faculty qualifications. This national 
information repository would not only help credit evaluators, 
it would help students.
    Second, Federal policymakers should consider a disclosure 
requirement for institutions that make claims with regard to 
transferability of their course work to other institutions. It 
appears that much of the student discontent about denials of 
transfer credit are based on claims made by sending 
institutions that turn out to be misleading.
    Institutions that make claims about the transferability of 
their credits to other institutions should be required to 
provide the basis for the transferability claim, the number and 
types of articulation agreements in which the institution 
participates and the number of documented cases of successful 
transfer on a course-by-course basis.
    Third, Congress could authorize a grant program to promote 
articulation agreements and increase degree attainment. Such 
grants could be awarded on a competitive basis to institutions 
to enable them to focus on improving transfer opportunities for 
traditional and nontraditional students. Additionally, the 
grants could promote articulation agreements amongst different 
institutions in order to improve the degree completion for 
incoming transfer students.
    On behalf of the members of AACRAO, I want to thank you for 
consideration of our views, and look forward to answering 
questions.
    [The prepared statement of Mr. Sullivan follows:]

     Statement of Jerome H. Sullivan, Executive Director, American 
     Association of Collegiate Registrars and Admissions Officers, 
                             Washington, DC

Introduction
    Chairman McKeon, Ranking Member Mr. Kildee, members of the 
committee, my name is Jerome H. Sullivan and I am Executive Director of 
the American Association of Collegiate Registrars and Admissions 
Officers. I am honored to have this opportunity to share the views of 
our members with the Subcommittee regarding the portability of academic 
credit and student mobility among institutions of higher education.
    AACRAO is a nonprofit association of more than 2,400 institutions 
of higher education and more than 9,500 campus enrollment services 
officials. The campus officials who comprise our membership range from 
front-line staff to senior administrators with primary responsibility 
for admissions, enrollment planning, records management, administrative 
computing and other important operations and student services central 
to the smooth and efficient administration of colleges and 
universities. Our membership includes public and private non-profit 
institutions as well as for-profit collegiate institutions.
    Today's hearing focuses on the portability of academic credit and 
whether transfer of academic credit policies can be improved. As a 
national organization of transfer of credit administrators who both 
send and receive transfer students, AACRAO is in a unique position to 
address this topic in terms of current practices among institutions, 
within individual states and across the nation. We recognize both great 
successes and challenges in the current state of transfer and 
portability of credit. On the one hand, American higher education is 
undoubtedly the most flexible and transfer-friendly system in the 
world. On the other hand, student mobility is not entirely without 
constraint, and carries costs for institutions and students. Clearly, 
the more these costs can be contained or eliminated, the more efficient 
and productive we collectively can become, and the more options 
students will have. I would like to briefly address the present state 
of affairs with regard to transfer and bring some of the pending 
initiatives on transfer to the Subcommittee's attention. Additionally, 
I'd like to offer a few solutions to ease credit portability and 
student mobility.

Transfer: A Complex Issue
    Transfer and articulation are complex phenomena involving planned 
and unplanned movement of students among institutions of higher 
education. Planned transfers may be facilitated by carefully negotiated 
articulation agreements between institutions, and enable students to 
start an academic program at one institution with the knowledge that 
they will continue their program and obtain their academic credential 
at another institution. It is important to note that not all planned 
transfers are based on such prior institutional arrangements, and that 
students may independently plan to transfer from one institution to 
another without informing their advisors or having complete knowledge 
of the credit-acceptance policies of the institution to which they 
intend to transfer. But of course, not all transfers are planned.
    Beyond planned transfers, unanticipated factors and the general 
mobility of our society create numerous circumstances under which 
students must move from one institution to another without prior 
planning. Reasons for such movements can range from mismatches between 
students and institutions to geographic relocations by the families. 
The fundamental challenge with transfer, whether planned or unplanned, 
is to aggregate coursework conducted at different institutions with 
different academic policies, different curricula, and different levels 
of expected rigor into an academic credential that the issuing 
institution can stand behind. Transfer is complex, then, because 
disparate and sometimes incommensurable coursework is brought together, 
often without prior involvement of the institution from which the 
student expects to graduate.

Who Transfers?
    Once it was assumed that transfer students were young people who, 
because they wanted to stay close to home for two years after high 
school--for financial reasons or reasons of convenience attended a 
local two-year ``junior college'' or ``community college'' before 
transferring to a four-year institution. Today, nearly 60 percent of 
community college students are over the age of 22. Sixteen percent of 
all community college students are in their thirties; 10 percent are in 
their forties; and 5 percent are in their fifties or older.
    Transfer students are no longer only those who begin college at a 
two-year institution and then move to a four-year. There are ``lateral 
transfers''--students who transfer from a two-year school to another 
two-year, or from a four-year school to another four-year. There are 
also ``reverse transfers''--students who start at a four-year school 
but graduate from a two-year school. And, there are ``swirling'' 
transfers--students who are enrolled in two or more schools 
simultaneously. While it is still true that more students at two-year 
colleges transfer about 42 percent--than those at four-year 
institutions--about 23 percent one-third of college seniors have 
transferred at some time in their career.

The Institutional Transfer Process
    To better appreciate the transfer process, it may be helpful to 
review the careful procedures institutions typically follow in handling 
transfer decisions. The admissions process for transfer students is 
significantly more complicated because beyond an evaluation of the 
applicant's qualifications, separate determinations must be made about 
credit acceptance and placement of the student. The process of transfer 
credit evaluation typically involves transfer professionals and the 
faculty, and requires an in-depth analysis of every course-entry on the 
transcript. The credit evaluation process is abstractly divided into 
three distinct judgments. First, an assessment of the quality of the 
course must be made. Second, the course must be evaluated on the basis 
of its comparability to courses at the receiving institution. Finally, 
the coursework for which credit is granted must be determined to be 
applicable to the program of study for which the student has applied. 
For purposes of ensuring student success and protecting the integrity 
of academic credentials, all three judgments must be made in the 
affirmative for credit to be granted. Courses of poor quality, courses 
for which the receiving has no general counterpart, and courses that 
simply do not apply to the degree being sought should not, and are not, 
typically ported over. This standard benefits students by ensuring that 
they are not inappropriately placed in courses for which they are ill 
prepared.
    Concrete determinations with regard to the three-part analysis 
described above can range in difficulty. Transfer professionals at 
institutions with significant transfers-in often have a course-by-
course understanding of academic offerings of their feeder schools. 
This course-level understanding is typically arrived at through 
intensive reviews of course syllabi, textbooks and supplemental 
materials used in courses, knowledge of faculty and their 
qualifications at sending institutions, and lengthy consultations with 
departmental faculty at the receiving institution in connection with 
each course. Expensive and labor-intensive as it is, this process 
represents the ideal method of credit evaluation. The good news is that 
once a particular course from a specific institution has been 
evaluated, if it is encountered again on a different student's 
transcript, the same credit decision can be applied until the course 
content changes. At many institutions, evaluations are captured in 
course-equivalency databases that are available to evaluators as a 
means of expediting the process. At most institutions, however, the 
process is entirely manual, and is driven by the experience and 
knowledge of expert evaluators.

State and Institutional Initiatives on Transfer
    No single model of articulation and transfer can be identified as 
the universal standard or even as the preferred model for the nation. 
Most states employ a combination of approaches ranging from informal 
efforts of transfer professionals that try to do right by the student, 
to more formal institution-based agreements, to state-mandated 
policies.
    Historically, two-and four-year college transfer and articulation 
agreements were primarily institutional initiatives rather than state 
mandates. Now, nearly every state has some policy on transfer of 
credits for students moving from two- to four-year institutions. 
Striking differences have emerged, however, in articulation policies 
and practices among the states. These differences include not only how 
policies and practices were initially established, but also their 
degree of selectivity, specificity and uniformity.
    Some widely used transfer practices are statewide articulation 
agreements, state-level transfer/articulation bodies, transfer/
articulation officers located at both two- and four-year institutions, 
and feedback systems to determine whether state policies are being 
implemented. Colorado, Florida, Illinois, Washington, and Minnesota 
provide examples of state-level agencies that have been directed by 
their legislatures to establish policies relating to the flow of 
undergraduate students between and among the institutions they 
coordinate. The states, in general, are already making tremendous 
efforts at setting up articulation mechanisms, including Web sites that 
can easily be accessed by students, parents and counselors.
    Vertical transfer (two- to four-year) is the type of transfer most 
often addressed in state transfer or articulation policies. State 
articulation policies are most likely to mandate transfer of general 
education or transfer of associate degrees, focus mainly on transfer 
among public institutions, and tend not to have an enforcement 
mechanism.
    At least thirty-eight states have transfer/articulation legislation 
via statutes, bills or resolutions. Cooperative agreements comprising 
formal voluntary agreements between institutions and formulated on a 
course-by-course or per discipline basis exist in at least 40 states. 
Transfer data is collected in 33 states for reporting and 
accountability purposes. Eighteen states offer student transfer 
incentive programs, including financial aid, guaranteed transfer 
credit, and/or an admissions priority. Twenty-six states publish 
student guidelines to outline requirements and types of articulation 
agreements between institutions. Twenty-three states have a statewide 
common core curriculum and eight states have common course numbering 
for all institutions. Finally, at least five states have specialized 
vocational-technical credit transfer organized via collaborations 
between two-year colleges and vocational institutions.
    Several common patterns are evident in the practices nationwide: 
First, despite changes in students' enrollment patterns, even the newer 
articulation and transfer policies focus almost exclusively on the 
traditional view that students transfer solely from two-year to four-
year colleges. Second, state-level agreements tend to focus on transfer 
between public institutions and do not take into account the 
possibility of transfer to or from private or for-profit institutions. 
A survey we conducted in 2002 of state transfer officers, however, 
indicates that 66 percent of respondents have articulation agreements 
between public and private institutions within their state and 41 
percent have articulation agreements, privately arrived at, between 
public institutions and proprietary institutions. Whatever the coverage 
of a state's policy, however, one of the most evident trends is the 
move away from voluntary agreements toward formal state-mandated 
policies.

Current National Efforts to Facilitate Transfer
    There are many national efforts in place to supplement and enhance 
institution-to-institution and state articulation policies. Since 1977, 
AACRAO, for example, has maintained a database of institution-to-
institution transfer credit practices, called Transfer Credit Practices 
(TCP). When it began, information was collected from only one reporting 
school in each state, typically a flagship, and disseminated in print 
form. Now, as times, technology and transfer have changed, TCP is a 
more robust, online database that includes several reporting 
institutions from each state. The database reports the transfer 
acceptance practices of reporting institutions and assists credit 
evaluators in determining how other institutions within their state 
evaluate course-by-course transfer credit. In addition, the AACRAO Web 
site provides a comprehensive list (Attachment 1) of state practices 
including mandates and articulation agreements as well as a variety of 
articles and links to outside sources that help transfer evaluators 
with credit applicability, equivalency and comparability 
determinations.
    Since 1978, AACRAO has maintained an agreement with the American 
Council of Education and the accreditation community, now represented 
by the Council for Higher Education Accreditation (CHEA), called ``The 
Joint Statement on Transfer and the Award of Credit (Attachment 2). 
This agreement, which emphasizes standards for evaluation of transfer 
credit, advocates equal examination of course quality, comparability 
and applicability.
    AACRAO is engaged in other efforts, too, including a cooperative 
agreement with the New England Transfer Association and participation 
on the CHEA's Committee on Transfer and the Public Interest. Further, 
our publication, The College Transfer Student in America: The Forgotten 
Student, offers research and practical advice to campus administrators 
concerning everything from maximizing the effectiveness of articulation 
agreements to addressing the specific and unique needs of an 
institution's transfer population.
    Obviously, AACRAO has done a lot of work on transfer issues. I 
would also like to recognize the contributions of others, particularly 
my fellow panelists, for their efforts to streamline transfer for both 
institutions and students. The National Articulation and Transfer 
Network with which AACRAO is pleased to be associated and its 
CollegeStepz Web site is an important resource for minority and 
underserved students. Further, its collection of nationwide 
articulation data is a good step toward development of a national 
research model. In Ohio, the development and implementation of the 
Degree Audit Reporting System (DARS) and Course Applicability System 
(CAS) have proven effective at streamlining equivalencies and 
portability. The ability to plan coursework around the prospect of a 
future transfer ensures that scarce time and resources are not spent in 
classes that won't contribute to successful degree completion, wherever 
it may be earned.

Inefficiencies in the System
    While institutional and state systems for transfer of credit are 
largely successful, we know that the system can be improved. There are 
inefficiencies for both students and for institutions. Uncertainty and 
lack of transparency cause significant difficulties for all parties in 
the transfer process. Many students cite denial of transfer credit as 
their primary source of concern. Students are sometimes misled to 
believe that their coursework at one institution will automatically 
transfer to another institution. Oftentimes students simply assume that 
coursework will transfer, without fully understanding the nuances of 
the evaluation process or the tremendous differences and diversity of 
higher education programs. The very quality of choice that we so value 
in American higher education precludes one national definition for each 
course, and causes slight differences that must be painstakingly 
evaluated as we review courses with identical titles from various 
institutions. Where the differences are truly slight, credit must be 
granted to expedite time-to-degree and avoid repetition and added costs 
for the sake of marginal new learning. Where significant differences 
are detected between courses of similar designation, however, for the 
sake of both the student and the reliability of institutional 
credentials, credit should not be granted. I don't believe any observer 
of the transfer phenomenon would disagree with the foregoing statement. 
The challenge is to understand how these determinations are made, how 
they are made erroneously from time to time, and how to improve the 
process.
    As I noted earlier in this testimony, credit may be denied for a 
number of reasons. Concerns about quality, comparability or 
applicability can result in adverse decisions. These concerns are, on 
occasion, caused or exacerbated by lack of adequate information about 
the sending institution, its academic policies, or its curriculum. 
Perhaps the greatest challenge in the evaluation process is this lack 
of adequate information about the student's prior coursework. In many 
cases, transfer evaluators at the receiving institution have only a 
single sheet of paper--the transcript--through which to determine the 
award of credit. The transcript lists the name of the sending 
institution, the names of the courses the student took and the grades 
the student earned. With this information the evaluator is left to 
figure out much about the sending institution, the substance of the 
coursework--whether it is comparable to courses taught at the receiving 
institution--and the student's academic achievement. With such little 
information, credit evaluators rely on quality measures like the 
accreditation of the sending institution and course descriptions in 
course catalogs to complete their evaluations. In addition to credits 
from traditional colleges and universities, credit evaluators examine 
and make determinations about credits earned through experiential 
learning, distance education, international education and vocational 
schools. When there is a question regarding the applicability or 
comparability of a specific course, credit evaluators defer to faculty 
members in the relevant field for guidance. Greater transparency of 
sending institutions can alleviate such concerns, and facilitate 
successful transfer of credit where appropriate.
    Beyond the factual difficulties of the task of evaluation, other 
issues compound the problems. These include proper disclosures and more 
accurate advance information--to student and institutions--about 
portability of credits, as well as a greater effort on the part of all 
institutions to address the unique needs of the transfer population.

Possible Solutions
    From our perspective, the primary national policy priority 
regarding transfer is to enable and facilitate solutions that ease the 
portability of credit. Successful policy solutions will recognize that 
transfer is ubiquitous and will only become increasingly important as a 
mechanism for students to attain degree completion. Such solutions 
should be flexible enough to accommodate the myriad unique types of 
students and institutions involved in the transfer of credit process 
and should not be one-size-fits-all. Transfer policy should be based on 
assumptions that encourage students to matriculate through the 
educational system towards degree completion; that maintain a balance 
between public benefit and administrative burden; and that continue to 
recognize the institutional autonomy of curricula and degree 
requirements.
    In addition to the efforts AACRAO and others here today are already 
engaged in, effective state policies are at the heart of programmatic 
success and degree attainment for transfer students. We believe that 
federal policy could supplement these efforts, however, and I'd like to 
offer a few suggestions.
    First, the federal government could facilitate a voluntary data 
collection to provide receiving institutions with more detailed 
information about courses for which credit is sought by incoming 
transfer applicants. In creating better tools to support transfer 
credit evaluation on campus, the federal government can eliminate much 
of the friction in the system and promote the optimal outcome for 
students. One possible information collection and dissemination 
mechanism for this effort could be the College Opportunities Online 
portal on the U.S. Department of Education's Web site. Another possible 
portal for voluntary submission of course information would be the 
CollegeStepz Web site operated under the auspices of the National 
Articulation and Transfer Network. Such a site would voluntarily 
collect information such as institutional course inventories, catalog 
descriptions, syllabi, text books and faculty qualifications. This 
national information repository would not only help credit evaluators, 
it would help students better understand the academic offerings of 
participating institutions.
    Second, federal policymakers should consider a disclosure 
requirement for institutions that make claims with regard to 
transferability of their coursework to other institutions. It appears 
that much of the student discontent about denials of transfer credit 
are based on claims made by sending institutions that turn out to be 
misleading. These claims are particularly troublesome when made at the 
point of recruitment, when students are basing enrollment decisions on 
them. Any claims about other institutions' credit acceptance policies 
should be based on facts. We believe institutions making claims about 
transferability of their credits to other institutions should be 
required to provide: (1) the basis for the transferability claim; (2) 
the number and types of articulation agreements in which the 
institution participates; and (3) the number of documented cases of 
successful transfer on a course-by-course basis.
    Third, Congress could authorize a grant program to promote 
articulation agreements and increase degree attainment. Such grants 
could be awarded on a competitive basis to institutions to enable them 
to focus on improving transfer opportunities for traditional and non-
traditional students. Additionally, the grants could promote 
articulation agreements among different institutions in order to 
improve the degree completion for incoming transfer students.

Conclusion
    On behalf of the members of AACRAO, I thank you for your 
consideration of our views. We appreciate your extraordinary efforts on 
behalf of students and look forward to working with you as you advance 
the cause of education.
                                 ______
                                 
    Chairman McKeon. Thank you very much.
    Well, you have given us a lot to think about, and I commend 
Florida and Ohio for what you are doing. That sounds like that 
would be a wonderful thing to see if all the States did that, 
and if we could also work out an interstate policy, that would 
be great. That is our goal, is to help students, to not punish 
students, but rather to help them.
    Members of Congress have documented evidence that some 
institutions of higher education accredited by the regional 
accreditors refuse to accept or even consider the transfer of 
credit from schools that are nationally accredited.
    Are you aware of this problem? How widespread and how 
pervasive is this problem?
    Dr. Day. We are aware of it. I am not 100 percent sure of 
how pervasive it is. I know that, as far as our association, 
NATN, is concerned, we have been open to working with any 
institution as long as it is either nationally or regionally 
accredited or enjoys special accreditation status. As with 
anything, in the final analysis, it really gets down to the 
issue of the individual institution and the student who is 
coming from that particular institution.
    Chairman McKeon. So you believe that the student should be 
based on the school they have come from, not eliminated just 
because of the accrediting body?
    Dr. Day. Absolutely, that is basically the operating 
principles that have been adopted by the Commission on Higher 
Education Accreditation, that we should not be discriminating 
solely on the basis of the type of institution that is sending 
that student, i.e., a proprietary institution or whomever. It 
is really about looking at the individual institution and the 
student and bringing the two together and blending them in such 
a way as it conforms to the types of issues that Jerry Sullivan 
outlined for you.
    Dr. Zimpher. Chairman McKeon, the Ohio system assumes a 
nondiscriminatory policy. It is interesting if you say it the 
other way, your accrediting body will not kick you out of the 
system, but it alone won't get you in the system, either way. 
But that is an important point to make. You do not have a 
blanket ticket no matter what, because it all boils down to the 
course and curricular equivalencies. You could almost do a 
blind review, a 2-year institution whose name is not noted to a 
4-year institution, because we look at the courses and the 
curriculum and the equivalency thereof.
    Chairman McKeon. I loved hearing your story about the 
student 3 years from now and how it is going to unfold for 
them, because that is what is driving this whole issue. That is 
why we have this issue in our bill, is because we are concerned 
that a student, especially one that is a first-time student in 
their family, they go to school, they are given some guidance 
on courses to take, and then, at the end of 2 years, find out 
that those courses do not transfer or half of those courses or 
a third of those courses do not transfer. And basically, I do 
not think education is a waste of time, but taking the same 
courses over and over again could be considered a waste of time 
in comparison with being able to spread yourself out to take 
other new classes.
    We hear good things about Ohio and Florida. Some States are 
not doing this. Could you give us any feeling about which 
States are not and why they are not?
    Mr. Sullivan. Well, nearly all States have some type of 
policy that is driving in the direction of freeing up mobility. 
Some schools, to go back to that previous question, probably do 
use accreditation as a rationale.
    I think typically what drives it is resources. It is 
difficult on the receiving end. Often, schools are faced with a 
situation of literally tens of thousands of applicants that 
they try to weed through, and, as a result, there is, I do not 
know whether it is a need, but a sense of, to get through it 
all, one needs to jump to some umbrella reason to say no.
    Chairman McKeon. Is a lot of that subjective, or is it 
objective?
    Mr. Sullivan. Well, to some extent, you could say it is 
objective. What you are trying to do is say, here is a group of 
institutions who a trusted third party, an accreditor, has said 
they have reasonable criteria for the type of faculty and 
program they put together and they are similar to you.
    Chairman McKeon. What we are thinking of, and that is what 
we have in our bill, requiring the institutions to have a 
stated policy so that the decision is made here instead of 
here, and the student can have the decision made up front and 
not have wasted that time. And I think it will save all 
institutions a lot of time, because if they have a policy, they 
do not have to go back through and say, ``Well, this may or may 
not be good, let's spend a lot of time discussing it.'' If they 
have an objective, written policy, then everybody complies with 
that, and there is no question.
    A student cannot say I did not know, because it is there. 
It is on the Web; they can look at it and use it. Their 
counselors can use that in guiding them in course selection up 
front. It makes, I think, a much smoother, seamless policy all 
the way through.
    Dr. Zimpher. I was just going to add that I think State 
reciprocity is really going to help us here. Ohio is very well 
situated, surrounded by five neighboring States that we have 
reciprocal relations with already, and I can easily see how 
Florida and Ohio, if we were able to have four or five national 
pilots that looked similar to Florida and Ohio, I think you 
could spread out from that direction.
    I also think that the Web is exponentially our friend. This 
idea of a student portal, where all kinds of information from 
preschool to kindergarten to high school to college exists and 
students can test out the viability of what they are taking, 
this will help students be more engaged in high school and more 
of a guarantee from high school to 2-year, 2-year to 4-year, 
or, as we have not really mentioned today, a big part of the 
Ohio system is 4-year to 4-year. It is really important.
    Chairman McKeon. Right.
    Mr. Kildee.
    Mr. Kildee. Thank you, Mr. Chairman. Dr. Zimpher and Dr. 
Klebacha, in developing the systems you have in Florida and in 
Ohio, how do you avoid going to the lowest common denominator 
on the quality of courses?
    Dr. Zimpher. Well, Representative Kildee, when I mentioned 
that 400 faculty across the State had been involved, if you can 
imagine the time they have spent. They have looked at each 
course syllabus in their respective institutions, and by making 
the learning outcomes public and by using for the gen-ed 
curriculum sort of a 95 percent transferability--and even for a 
major course, it has to be at least 70 percent compatible with 
learning outcomes from one institution to another--it has had 
the opposite effect.
    It has caused us to revise curriculum up to a standard, and 
I think that is maybe counter-intuitive, but a lot of work by a 
lot of people looking individually at the curriculum has really 
raised the standard.
    Dr. Klebacha. We have 191 faculty committees that are 
around content areas. So one way to ensure that you do not go 
to the lowest common denominator is you put them all in a room 
together, and you make them work it out. They will fight among 
themselves until they get to the point where they level out at 
a quality, rigorous coursework level.
    Not only that, we have at the State level that practitioner 
group that I mentioned that reviews this and is a check and 
balance at the State level for ensuring that it is in fact a 
rigorous and quality program.
    Dr. Day. Mr. Kildee, just to follow up on that, prior to 
going to California, as the Chairman mentioned, I was in 
Florida, and at the time, while all of this was being planned 
and developed, I was the president of Daytona Beach Community 
College in Florida. And my chief academic officer was one of 
the key players on one of the major committees.
    I have got to just give you some assurances, I think in the 
words of the president of the University of Cincinnati, it 
actually elevated the quality of both the discussion and also 
the outcomes from the point of view of the course work. Because 
not only did it bring all of the faculty and staff that Theresa 
was talking about to discuss issues regarding common course 
numbering, but after all of that was settled, we then went 
through a process of what we referred to as leveling, what is 
lower division and what is upper division, so there would be a 
line drawn about what the community college's responsibilities 
were and what the university's responsibilities were, so 
everybody knew what their job was. Everybody knew where they 
could focus their resources to get the very best effort. And 
the same thing applied to the lower division in the University 
of Florida system.
    So, they are very comparable to what was going on in the 
community colleges. So it does work but is a long, deliberative 
process, and it does cost a lot of money.
    Dr. Zimpher. I would add, Representative Kildee, that, in 
Ohio, there is a pretty sophisticated higher education 
information system. We are actually tracking cohorts of 
students to make sure they have had success in transfer and 
successful completion of their courses. So I think that kind of 
data system, I know that you have been interested in data 
systems and what you could do on a national basis, but the 
advantage of our data system is you know where the student came 
from, what courses he or she has taken, what grade level 
achievement, whether or not it transferred to the next college 
or 2- or 4-year institution. That is the kind of assessment 
data I think we need, probably best generated at the State 
level.
    Mr. Kildee. Thank you. I am glad I asked that question. 
Good answers, good responses. I got some good knowledge.
    Dr. Day, you mentioned that the Federal Government could 
provide some encouragement on a voluntary basis to achieve 
this. Does H.R. 609 go in that direction?
    Dr. Day. I think it is certainly trying to do that, but I 
think the concern that we have, probably the largest concern, 
is, despite all of the issues about posting policies, I do not 
think that is a big problem. I think every institution would be 
prepared to do that.
    But the issue of the reporting, the subsequent and more 
detailed reporting requirements that necessarily have to be 
followed, from the point of view of not only the student that 
is coming in but the student who is being accepted and the 
amount of transfers as well as from the point of view of 
separate accrediting agencies, I think the better approach on 
that would be--because in each State, going back to Florida, 
for example, I mean, one of the things that really drove that 
train, if you will, on developing that system, was the 
development of statewide accountability standards. The same 
thing has just happened in California. Our chancellor of the 
community college system has just now turned over to the 
legislature and the Governor's office a whole new 
accountability plan that is not focused on statewide data. It 
is focused on districtwide data and has a compliment of 
statewide data that we are all going to be compared to, and one 
of the key elements of that is transfer.
    I think the proper role of the Federal Government is to 
ensure that the States are following through with that.
    Getting back to Chairman McKeon's question about whether 
there are different State practices. Well, it is rather spotty, 
in fact. As good a three-tiered system as California has, there 
is a lot of room for improvement. Not every State is like 
Florida and not every State is like Ohio. But we have got to 
try to build in some assurances that we move them and 
incentivize them to move in that direction, because there is 
certainly a lot of good people at the grassroots prepared to do 
that because they care about the students that they are 
serving.
    Mr. Kildee. Thank you, Mr. Chairman.
    Chairman McKeon. The Chair yields to the gentleman from 
Louisiana, Mr. Boustany.
    Mr. Boustany. Thank you, Mr. Chairman.
    A couple of questions.
    Mr. Sullivan, in your testimony, you talked about some of 
the constraints within the College Credit Mobility System that 
carries cost for institutions. Tell us a little bit more about 
cost, because I think we would like to know more about what the 
costs are for students and the institutions.
    Mr. Sullivan. I am glad to. As transfers are currently set 
up, cost tends to fall on the receiving institution more than 
on the sending institution. We think there could be some better 
balance there.
    The cost begins with personnel. Someone shows up on your 
campus with the idea of transferring to you, whether that be 
planned or unplanned. When it is planned, it is a little 
smoother, because there can be articulation agreements, as we 
heard here, in place. When it is unplanned, they show up often 
with an unknown school and a series of courses that little is 
known about. There will be a staff of X number of people trying 
to discover whether or not those courses by the three criteria 
make any sense for giving credit at that particular 
institution.
    I was at a panel similar to this out in California a couple 
of years ago listening to one of the State universities out 
there talking about how they did not have enough to get the job 
done, and they had a staff of nine trained evaluators carrying 
that out. That is a considerable expense.
    Some of these ideas talked about here today begin to break 
through that cost. By the sending institution being able to 
provide more information online that an evaluator can look at, 
that would breakdown some of that problem.
    I think President Day's project, approach to this also 
would begin to expand from State to State. His approach is that 
they are looking at regions rather than nationwide, where you 
would take a metropolitan area and faculty members can get 
together and begin to work on that.
    We know that most transfers take place within about 50 
miles of the institution, so you can start to develop these 
cells. It will bring down costs, and it will facilitate a great 
deal of this, rather than everything taking one effort taking 
care of the entire Nation, which probably will not work.
    Mr. Boustany. Thank you.
    Are there any articulation agreements between liberal arts 
colleges and universities or interstate transfer agreements out 
there? Can any of you comment on some of that?
    Dr. Day. None that I know of that are formalized and that 
provide the student with the type of assurances that they would 
be able to effectively move from one State to another.
    There are agreements that exist that allow a student, for 
example, the New England Compact Agreement, which allows a 
student from Maine, my home State, for example, that might want 
to go into and enjoy having access to a major that is not 
offered by the University of Maine system, but if it is offered 
by the University of Vermont, they will travel to the 
University of Vermont, and they will pay the comparable tuition 
of the State of Maine.
    We have not approached that issue, but I think that you are 
going to see that emerging on the horizon, whether it is 
through the New England or the regional accrediting groups or 
such organizations as WICHE, which is the Western Interstate 
Commission on Higher Education. I think everybody is focusing 
on this issue.
    But, again, while there are issues when you work within a 
particular State, if you consider the State as a silo, you can 
get all of the things organized as much as you want, but the 
reality is that when somebody leaves Florida or Ohio and 
decides to go to Pennsylvania or to Illinois, the reality is 
they are at risk. That is the reason why we have to work 
developmentally to build this block, this coalition, on a 
local, regional and national level, so that we facilitate 
transfer around this country, and we do not put students at 
risk because of the fact that there is no room at the inn at 
their local State University or in the system itself; because 
of demands or demographics, they are forced to go out-of-state 
to get access to the upper division and baccalaureate degree, 
and that is when we have serious problems.
    Mr. Boustany. I thank you.
    Chairman McKeon. The Chair yields to the gentleman from New 
York, Mr. Bishop.
    Mr. Bishop. Thank you, Mr. Chairman, and thank you very 
much for holding this hearing.
    I want to thank the panel first for all of the work you are 
doing in terms of facilitating the process by which students 
transfer from one institution to another. I consider that issue 
to be absolutely central to the issue of access and 
affordability, which ought to be one of our concerns as we 
reauthorize the Higher Education Act.
    Dr. Day, I want to sort of follow up on the questions that 
Mr. Kildee asked. You said in your testimony that you believe 
that this issue required congressional support but that you 
thought that support ought to take the form of, in effect, 
encouraging schools to undertake volunteer activities as 
opposed to the Federal Government imposing activities or 
policies on schools.
    Mr. Sullivan, you did not use those terms, you did not use 
``volunteer,'' you did not use ``mandatory,'' but certainly the 
thrust of your testimony would be that you agree with that 
sentiment.
    I guess my first question is to Dr. Zimpher and Dr. 
Klebacha. Do you also agree that the role of the Federal 
Government ought to be volunteer as opposed to mandatory in 
encouraging schools to facilitate the process by which students 
transfer from one institution to another?
    Dr. Zimpher. Representative Bishop, I think if you parse 
the bill out, what I know of it, I do not have deep knowledge 
of it, I think the Federal perspective on nondiscriminatory 
policies is an important one, and, as I said before, I think 
that should not be the determinant one way or the other. So I 
think it has been helpful to articulate at a national level, 
say, in a bill of this sort, that there are certain principles 
that should be adhered to.
    But, yes, I think in the final analysis, States are better 
equipped to move in these directions and move reciprocally with 
other States.
    I am not sure that a national data system is in our near-
time horizon, but I also learned a great deal from listening to 
Florida today. I think we have many similarities in our system. 
I think encouraging pilots, giving recognition to States that 
have made progress, would be very important to voluntarily 
encouragement of others.
    Dr. Klebacha. Thank you for the question, Congressman 
Bishop. I, too, agree that it should be voluntary. However, I 
do believe that there is a role of Congress to establish basic 
minimum expectations right up front: This is what we expect to 
see; these are the goals we are trying to reach, put in place 
motivations, performance funding, those kinds of things we did, 
to encourage institutions to move toward the goals and 
expectations, and, as Dr. Day mentioned, have performance 
measures that you specifically will be looking at and 
measuring, give credit to those that have met those and further 
encourage them, and those that have not, perhaps they will once 
they see that the students will gravitate toward the programs 
that do adhere to those areas.
    Plus, I like the idea of Congress serving as a repository 
of information, because, to some extent, excuse me, Congress 
encouraging a repository at the Federal level. We have a bunch 
of information we could share up there. The same thing with 
Ohio and these other States. Eventually, you will have a 
network of information that can be tapped into for particular 
quality indicators that our registrars are looking for. So I 
would encourage voluntary participation.
    Mr. Bishop. Let me, if I may, there is very specific 
language in H.R. 609 which deals with the issue of 
transferability of credit, and it imposes on the institutions 
certain minimum requirements. I guess my question is, do you 
see the imposition of those certain minimum requirements as a 
mandate from the Federal Government? And, if so, is that a 
mandate that you believe is reasonable, or do you see this as 
sort of going over the line from encouraging and support of the 
behavior on the part of the Federal Government to imposition of 
behavior?
    Dr. Zimpher. Representative Bishop, the specification of 
certain data minimums, I think, is at issue here, because we 
need data that are really useful. We need to know where 
students have come from, what courses they have taken, whether 
those courses were accepted at the receiving institution and 
whether or not they continue to matriculate toward graduation.
    As it is currently defined, I guess we are not quite sure 
what national data system or minimum set of data entries would 
do for us, except add a layer of data collection that may not 
tell us where the student came from, what courses they took, 
how successful they were and if they are matriculating. So the 
concern, really, and I am sure we have to, I personally, have 
to study it more, but the concern is that data that are 
mandated as minimums be useful.
    Mr. Bishop. Sir?
    Dr. Day. I would support that, particularly as it relates 
to the detail. When we say minimum, and then you take a look at 
the real detail associated with the reporting requirements on 
the data, that is going to be a lot of work and time and 
effort.
    I do think, however, that there are some things that 
clearly need to be emphasized in the bill about the issue of 
transfer policies. The principles that guide those transfer 
policies, those ought to be all clear up front so that, in 
terms of the truth in advertising, so the student knows what 
they are getting.
    I think also there has to be assurances, and I think this 
is where the Federal Government working in concert with the 
State--I do not know if it is really humanly possible for you 
folks to be able to track how well institutions are doing from 
an accountability standpoint. It is a lot easier for you to 
track 50 States' performance than it is the 3,000-plus post-
secondary institutions, public, private, proprietary.
    So I just think we ought to be looking at the States and 
having some minimum requirements of those States that 
essentially says we have got some performance criteria, we do 
have some accountability standards and they relate to the core 
mission of the respective institutions and one of my core 
missions is transfer. So when we design an accountability plan 
for the City College of San Francisco, I am going to be 
specifying beginning to end to my State and to the State 
legislature what I am going to do.
    I think you need to get some assurances that indeed every 
single State is doing that.
    Mr. Bishop. Thank you, Mr. Chairman.
    Chairman McKeon. Does every school have a transfer policy 
of what they accept? What would be the problem with asking that 
that be put on a Web site?
    Dr. Zimpher. I think that is where we are going.
    Chairman McKeon. That is exactly where we are going.
    Dr. Zimpher. The student portal idea, which has many, many 
pieces of information in it, will make it perfectly obvious 
what the transfer policies are.
    Chairman McKeon. That is all we are asking. That is what we 
have been asking in the bill, is that every school have a 
policy, that they do not make the policy based on the 
individual student. That they have the policy, and the student 
can then go to the Web site and know what that policy is, and 
it is not going to be based on them; it is going to be based on 
what they are doing.
    The Chair now yields to the gentleman from Nebraska, Mr. 
Osborne.
    Mr. Osborne. Thank you, Mr. Chairman, and thank you all for 
being here today.
    I am looking at this from a little different standpoint in 
that I was in the coaching profession for a long time, and we 
dealt with a lot of transfers, and we looked at a lot of 
transcripts. It was always difficult to figure out exactly how 
good a student was. You could look at the transcript, and they 
had had college algebra. They had had chemistry at the junior 
college or community college level, and yet sometimes, you 
would find that, once you got that student on the campus, that 
those courses really did not translate into a very sound 
academic base.
    Some places, this probably was more peculiar to the 
athletic community, you might find that, out of the 30, 35 
hours that a student athlete transferred, that maybe almost 
half of them were taught by members of the coaching staff at 
the school. So just looking at the course title and the 
syllabus and so on did not always tell the story.
    There was one school, maybe it is perfectly legitimate now, 
Azusa Pacific, I remember hearing about from time to time, 
where athletes actually, through mail order, got quite a few 
credits, and you had to be pretty nervous about that.
    So we certainly want to be fair to the community colleges. 
They do a great job, and we do not want to discriminate against 
students who have done the work and have had sufficient 
academic rigor.
    But do you have any thoughts as to how you ferret out those 
places that are really not operating in a legitimate fashion 
and that are really not providing the necessary academic 
background? Because there are so many things that are difficult 
to ferret out just by looking at a syllabus or a transcript. 
And I invite any of you to hazard an opinion here or----
    Dr. Zimpher. Well, Representative Osborne, it really sounds 
like there is a great deal of similarity in the course review 
process that has been initiated in both Florida and Ohio.
    Sheer numbers of faculty who have been brought to the table 
from two- and 4-year institutions to review the course 
syllabus, the expectations that the syllabus must express 
learning outcomes, this is a transition from seat time or 
credit hours to ``What did you learn?'' and ``What were you 
expected to learn?'' the high degree of equivalency established 
between courses that are judged from one campus to another;
    An appeals process for disputes when there is disagreement 
amongst the disciplinarians has really taken us a long way to 
some more reliability that this course does what it says it 
does.
    And I think the public scrutiny makes a big difference. And 
convening committees across multiple disciplines has certainly 
been a key to our process in Ohio; it sounds like the process 
in Florida.
    Mr. Osborne. I thank you for that answer. But what I am 
trying to say is that simply examining the syllabus and looking 
at the supposed course content doesn't always tell the story.
    And if you look at graduation rates--the NCAA tracks this 
very closely--of junior college athletes as opposed to those 
who enroll as freshmen, there is a stark contrast. And yet----
    Dr. Zimpher. This is one place where tracking the success 
of the transfer student can make that difference. Because what 
happens to you, if you have taken a course that didn't have the 
requisite content, is that you will not do well in the next 
course that you take when you transfer.
    So part of our data system is tracking the success of the 
student after we have made the judgment that they do have the 
academic content. So when they go on to the next level of 
courses at the next institution, we will know if they are 
failing those courses. It will suggest very directly that what 
we thought was happening in that course was not.
    Dr. Klebacha. If I may, sir. There is a certain benefit to 
accreditation. And I am not for or against accreditation, but 
what I am for is that there be established somewhere some basic 
standards that any institution must meet in terms of assuring 
the receiving institution that the basic standards, be they in 
their transfer policy perhaps under the guidelines that we are 
talking about--a receiving institution registrar would have a 
certain level of good feeling or understanding that that 
institution at least adheres to these minimum standards, which 
automatically takes off the top faculty credentials, takes off 
the top content review, takes off the top on a regular basis 
what are your performance indicators, those types of content 
quality indicators of an institution that a receiving 
institution can be assured is OK to begin with.
    And then they can focus more attention on the specific 
courses associated with it--even, they could spend more time 
going back and verifying to the extent that they need to. And 
then, of course, you establish a track record of an institution 
that continues to send you students. You can see from the 
performance of their students whether there might be a 
different issue as well.
    Dr. Day. I would just, as Mr. Osborne, as the CEO of a 
community college who has enjoyed the benefit of being the 
national coach of champs in football in 4 of the last 5 years 
that, in fact, the greatest level of success that we have with 
our students is when we get them into the institution, coaching 
and mentoring them, outside and off the field, and providing 
them with support services. And when our students transfer, 
generally speaking, we find that they have more success at 
transferring to a senior institution if they have more of the 
credit package that represents the associate degree.
    If you take a student that has less than or just has 1 year 
of experience, which a lot of colleges show up on my campus, 
and they see a star and they know that they have cleaned up 
their eligibility requirements and they now could be eligible 
for NCAA criteria, you know, they do put pressure on them, they 
try to recruit the student after they have only completed half 
of what we would call our program.
    What we try to do is to work with that student and say, 
``Look, postpone your gratification in terms of transferring. 
Stay with us; it is going to be much more successful.'' And we 
find that when they have got that degree and they have got all 
the general ed and when they have got all of the degree 
requirements out of the way, when they transfer they are going 
to do better and outperform the athletes that grew up in those 
institutions as freshmen because they are that much better 
prepared.
    But if you take them prematurely, you are going to get what 
you ask for, and there are some issues and some problems. And I 
am just being candid with you; they couldn't get into the 
University of Nebraska in the first place because they didn't 
meet eligibility requirements, which meant that they weren't 
academically ready for that type of an institution.
    So we take them and we work with them just the same way as 
we do all with students, regardless. And the longer we have 
them, the more successful they are going to be at your level.
    Mr. Osborne. Well, if you would grant me another 20 
seconds, I would say that your observations are very correct, 
that those people who have done the full 2 years and have got 
their A.A. are much better candidates. And I think there are 
some community colleges, some junior colleges that do a 
tremendous job.
    But there are the others, and therefore it is always 
difficult to declare a national standard and say, ``Well, this 
one size fits all.'' It is a little bit risky.
    But, anyway, those are my observations. And thank you, Mr. 
Chairman.
    Mr. McKeon. The Chair yields to the gentleman from Oregon, 
Mr. Wu.
    Mr. Wu. I thank the Chairman.
    I represent an area where there are several community 
colleges and one of our State universities. Portland State 
University has agreements with the adjacent community colleges 
to provide not only for transfer, but concurrent enrollment and 
unified financial aid so that, for example, a student can take 
a course at one of the community colleges in the morning, work, 
and take a course at Portland State in the evening depending on 
his or her needs.
    In your experience, how common is that kind of arrangement 
around the country? Is it quite common now, or is that still a 
little bit unusual? Or is it geography dependent?
    Dr. Day. I think in States like in California, where that 
is currently being tested to the limits in terms of the 
pipeline demographics of too many people coming out and too few 
places, that pattern that you have just described used to be 
pretty prevalent throughout the higher education system. And it 
also was prevalent with the--between the high schools and the 
community colleges, and you are aware of that practice.
    But as the demands for enrollment have increased at all 
levels of our system--and I think that this is very much the 
case in other States as well, who are all trying to deal with 
this burdensome level of demand--it becomes harder to agree to 
allow a student from a local community college to sit in that 
seat because they might be taking up the space of another 
aspiring student who is a member of the university community.
    But it absolutely should be encouraged. We ought to try to 
work at it. But there are States that have had some problems 
following through with what you are talking about.
    Mr. Wu. It seems to me that that capacity constraint, that 
is a little counterintuitive, because if you have a capacity 
issue, by being able to cross-enroll, it seems that you would 
get more efficiency out of the total education system.
    So to ramp down that crossover ability when you have 
capacity constraints, that seems very counterintuitive to me.
    Dr. Zimpher. Well, as I heard the question, Representative 
Wu, we have had some what we call ``bilateral'' and 
``trilateral'' agreements for a long time that are going to 
serve as a model for statewide agreements. But it doesn't ramp 
up without the encouragement of statewide policy.
    So I think--for a long time students have been able, for 
instance, in Cincinnati to work from Cincinnati State to U.C. 
We have some remarkable 2-year to 4-year degrees. Culinary arts 
at the 2-year goes on to a bachelor's degree in culinary arts 
at the University of Cincinnati. But we didn't have a sort of 
systemic statewide impetus to make this more geographically 
fluid.
    So we are continuing to develop those bilateral, two 
institutions, or trilateral agreements. And, in fact, if you 
are in a bilateral agreement with two institutions and one of 
them enters into another bilateral agreement with another 
institution, we then calibrate that three ways so that it keeps 
ramping up.
    Mr. Wu. So what I am hearing is, without a little bit of a 
nudge, we don't make progress in that direction.
    Dr. Zimpher. I think that is what we thought in Ohio, and I 
think that is why we have made a lot of progress. And the State 
legislature is a very effective nudger.
    Dr. Day. Mr. Wu, if I may, I don't want to give you the 
impression that we are not doing--if you look at it totally 
from a student's perspective, I mean, my No. 1 transfer feeder 
institution is San Francisco State University, which is about a 
mile and a half down the road from where my main hub of 
activity is at City College of San Francisco.
    The reality is that students advantage the system without 
us having any formal agreement. I know that there are a lot of 
students from San Francisco State University that come up Ocean 
Avenue and study at my campus, and they take the courses. And 
the only thing that they have to be assured of is that they are 
taking a course that is equivalent to what we call the general 
education core requirements that are common to the U.C.-C.S.U. 
community college system.
    Mr. Wu. My apologies for cutting you short. My time is 
drawing short as I see from the color of the lights. And I just 
wanted to ask a follow-up based on my colleague from Nebraska's 
question and concern.
    My experience in transferring high school, community 
college, college credits was that the college and graduate 
institutions I was in had a remarkably open policy, and they 
depended entirely on the integrity of the professors in those 
courses to evaluate the course materials from the prior 
institution. And if they signed off on it, then you got credit; 
and if you didn't get a professor to sign off on it, you 
weren't going to get credit.
    I am concerned--and the Chairman may be amused that he is 
hearing this from a Democrat. I am concerned that setting any--
that setting national standards would somehow interfere with 
this kind of autonomous process of independent evaluation by 
faculty members.
    Am I off base in this concern; or, you know, because I am 
concerned, as Mr. Osborne said, about a one-size-fits-all 
approach?
    Mr. McKeon. If the gentleman would yield.
    Mr. Wu. Yes.
    Mr. McKeon. I think reference has been made to our bill 
that we introduced, and we don't set any standards in the bill. 
All we ask is that the institutions publicly publish their 
policy for transfer, they set all--the schools set their 
standards.
    All we are saying is, put it out publicly so that the 
student will know up front what the standards are, so when they 
are at this school, they can take a course that they know will 
transfer to this school, rather than taking the course and then 
having to go hat in hand and say, ``What is the chance of 
transferring?''
    Mr. Wu. Reclaiming my time from the Chairman, my concern 
with this is, would it permit a system where the only way that 
you know that the credits transfer is to run it by a faculty 
member at the transferring institution? If that happens to be 
your standard, would it pass muster under the proposed 
language? And there is a concern there about if you have prior 
approval.
    Mr. McKeon. Would the gentleman yield?
    Mr. Wu. Yes.
    Mr. McKeon. So you are saying if the receiving institution 
puts in their public policy that we will accept any English 101 
class from any school if our English professor will approve it?
    Mr. Wu. Yes.
    Mr. McKeon. I guess, if that is what they want to put as 
their policy, that is the risk you take, because they will have 
the right to publish their policy.
    Dr. Day. I think that there is probably another way to go 
about this, specifying that level of detail. Regional, 
specialized, and national accreditation criteria do outline 
procedures and practices that should dictate how credit is 
reviewed and assessed and provides for equivalency.
    And so at the heart of it really is--and I can't speak for 
national, but I know for specialized, because I have been 
there, done that, as well as for regional, that the basic core 
principle is, it is the responsibility of the college faculty; 
and the presumption is, in certain program areas in particular, 
that that is where the quality control issue has to be resolved 
that determines whether or not the credit is equivalent to the 
credits that are offered by that department. And I think by 
simply abiding and reaffirming and supporting those criteria 
and practices that are already--that every single institution 
that enjoys some accreditation status has got to follow if they 
are going to be accredited, then you have accomplished, in 
effect, the objective that you are trying to achieve without 
specifying in law that an English faculty member has to be 
responsible for accrediting or determining the accreditation 
status.
    And I know you are not going to that level of extreme, 
but--so----
    Mr. Sullivan. Congressman Wu, I was just going to add to 
that.
    I think one of the problems that we see is that H.R. 609 
goes beyond just asking for a policy statement. It actually 
goes on to say how that process ought to be carried out, and it 
leaves out some of the criteria that we currently use. And so 
it is more than just stating a policy. It goes on, it 
eliminates the evaluation process to analysis of comparability 
and student performance.
    And so the idea of quality and applicability gets left out 
of this, and I can see that as a significant problem down the 
road, and not really what the Committee would like to see 
happening.
    Mr. Wu. Well, Mr. Chairman, Mr. Sullivan, this is--I think 
we are close to being on parallel courses here, but I am a 
little bit concerned about what it looks like out the 
windshield, as opposed to in the rearview mirror, if the 
standard evaluations are, for example, at the end of a course 
and you evaluate content for performance after a course is 
taken. And if we are setting--and that is a rearview mirror 
look.
    And if we are setting something up as prospective criteria, 
although I think we are on parallel paths, I just want to 
express a little bit of concern about prospectively binding the 
receiving institution, giving the receiving institution enough 
flexibility to deal with the transferred credits and the 
transferring student in an appropriate way so that the faculty 
can ultimately be the control--quality control of both 
coursework and students.
    Dr. Zimpher. Representative Wu, I think that the Ohio and 
Florida systems are a ``yes'' in strategy. They represent the 
best thinking of the faculty, but they take the guesswork out 
of student course credit taking.
    Mr. Wu. Well----
    Mr. McKeon. The time has expired.
    Mr. Wu. I thank the forbearance of the Chairman. You will 
forgive me for having question marks in my mind any time the 
best of all possible worlds is presented on this Hill. We look 
forward to working together. Thank you.
    Mr. McKeon. The Chair yields to the gentleman from Ohio, 
Mr. Tiberi.
    Mr. Tiberi. Thank you, Mr. Chairman. I apologize to the 
panel that I wasn't here for your statements. I was talking to 
some future college students, 8th graders from Columbus, Ohio. 
I was plugging Ohio State, Dr. Zimpher. Sorry. But if they 
don't go to Ohio State, U.C. would be a good alternative.
    Dr. Zimpher. They could start there and transfer to U.C.
    Mr. Tiberi. Just kind of following up on the latest line of 
questioning, Dr. Zimpher, as a former nudger myself in the 
State legislature, and having had conversations in the past 
with the late Dr. Nestor at Columbus State and Val Moeller, now 
the new president, who has been there for some time, and former 
presidents Gordon Gee and Brent Kerwin at Ohio State about 
formalizing a relationship between a 2-year college and a 4-
year college in Ohio may be unique, I don't know, because of 
the growth of 2-year colleges and the number of 2-year colleges 
that we have and the number of public 4-years that we have in 
Ohio that are closely located to 4-years and 2-years.
    We have come a long way since I was a student in college at 
Ohio State of working together with 2-years and 4-years. 
Columbus State in central Ohio where I used to live has grown 
exponentially over the last 20 years. And many of those 
students, like my little sister, started at Columbus State--not 
for academic reasons, more for financial reasons--and ended at 
Ohio State. And there were some difficulties back in the 1990's 
when she transferred.
    But as you said, nudgers have helped, and the universities 
have worked together.
    Do you think that there should be some more formal 
agreements or laws put in place at the national and State 
levels to force institutions to do a better job across the 
country of aligning 2-years and 4-years or junior colleges and 
4-years?
    Dr. Zimpher. Representative Tiberi, it is nice to see you. 
And thank you for your work on this Committee--Subcommittee.
    I think Ohio has come a long way in part because of a 
recent bill, House bill 95, which was introduced 2 years ago. 
We have a 15-year-old transfer module, so we have been at this 
a long time. But what we were doing is, we were saying to 
students, you have to complete the entire module before you can 
transfer. So students were taking some of the courses, but not 
all of the courses, and then having to take courses over 
because they had only done a part of the module.
    Based on the encouragement of legislation in the Ohio 
General Assembly, we have stripped that off. We are now looking 
at the course as the unit of analysis. We have created these 
pathways to majors. We have all of the 2- and 4-year 
institutions agreeing to participate in this system.
    We are moving, as you can see, to an electronic information 
system. When I keep talking about the ATM card, I am really 
talking about your ability to put a card in a machine and get 
out an accounting of your courses.
    So I think what we have managed to accomplish--and I guess 
Representative Shawn Webster from Ohio would be pleased to hear 
this as the sponsor of the bill--is that that partnership 
between the legislature and the Ohio Board of Regents has made 
a profound difference. And I would say, in 2 years' time, we 
have done more than we were able to do in 15 years by that 
stimulation.
    But I think Ohio has a culture different than, say, 
Florida. We have a coordinating board, you have a governing 
board. We govern more by encouragement and influence than we do 
by edict and by rule, and that is the working relationship we 
had with the legislature. I am very supportive of that. And I 
think, as a university president, working very closely with 
President Moeller and President Ron Wright at Cincinnati State, 
this is working well for Ohio.
    Mr. Tiberi. Good.
    Does anyone else want to comment?
    Dr. Day. Let me just follow up and just metaphorically say 
that if we hold their feet to the fire too much, they are never 
going to show up and do anything at the dance.
    This country's postsecondary higher education system from--
particularly from an accreditation standpoint, is based upon 
the notion and the core principle of voluntary participation in 
that process. And even though the words are there, ``voluntary 
participation,'' the Federal Government says that if you want 
to have access to Title IV(A) funding for student financial 
aid, you have got to make sure that you are fully accredited by 
a nationally recognized association. That is a good thing.
    That is a good thing, but it doesn't--so there are some 
generalized benchmarks and boilerplate criteria that I think we 
can use. But I think if we really want the best results, in the 
final analysis, the system has got to be voluntary, not forced; 
it has got to make the best of all of the best practices that 
we are hearing about in States like Florida and Ohio. And there 
are others.
    We also ought to be tapping into the regions that have for 
a long time put a lot of heavy emphasis, as regional 
accrediting groups have gone in to accredit institutions and 
take a look at their programmatic infrastructure and their 
array of student services. They always come in and evaluate us 
on the basis of how well our graduates are doing and how well 
they are getting from point A to point B.
    I think, if we encourage and incentivize that system, it is 
going to provide you with more than--more results than you are 
expecting as opposed to forcing them and holding their feet to 
the fire too much.
    Mr. Tiberi. Thank you.
    Mr. Chairman, I know my time has expired. Just in closing, 
I would like to thank personally Dr. Zimpher for coming today. 
We miss you in Columbus, but we are pleased to see a former 
Buckeye doing so well at the University of Cincinnati. Thank 
you.
    Mr. McKeon. I detect a little prejudice for the Buckeyes. 
And if you can spread that wealth around throughout the whole 
State, that is probably good.
    Thank you all for being here today, for your comments. As 
we go through this process, I know I have learned some things 
today, I hope all of the Committee has. And I know I am going 
to go back and relook at some of the things that we have talked 
about.
    I hope you will stay in close contact with us. As we go 
through the process of reauthorization, we encourage your 
continued input. Thank you very much.
    The Subcommittee stands adjourned.
    [Whereupon, at 11:26 a.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
